EXHIBIT A

FILED
3/18/2019
Court of Appeals
Division I
State of Washington

IN THE COURT OF APPEALS OF THE STATE OF WASHINGTON
STATE OF WASHINGTON,

)

No. 76463-2-1

)
Respondent,

)
)

v.

)

LIVING ESSENTIALS, LLC a Michigan
limited liability company, and
INNOVATION VENTURES, LLC, a
Michigan limited liability company,

)
)
)
)
)
)
)

Appellants.
_________________________)

DIVISION ONE

PUBLISHED OPINION

FILED: March 18, 2019

MANN, A.C.J. -The State of Washington sued Living Essentials, LLP, and
Innovative Ventures, LLP (collectively, Living Essentials) under the Washington
Consumer Protection Act (CPA), chapter 19.86 RCW, alleging that Living Essentials
violated the CPA by making deceptive advertising claims about its product, 5-Hour
ENERGY®. After a bench trial, the trial court agreed that three of Living Essentials'
advertising campaigns violated the CPA. The trial court assessed a civil penalty against
Living Essentials and awarded the State its attorney fees and costs.
Living Essentials argues on appeal that the trial court (1) erred by adopting the
Federal Trade Commission's (FTC) prior-substantiation doctrine, (2) that the priorsubstantiation doctrine violates article I, section 5 of the Washington State Constitution,
(3) that Living Essentials' claims were mere puffery which did not require substantiation,
(4) the trial court applied the wrong standard for necessary substantiation, and (5) the

No. 76463-2-1/2
trial court erred in concluding that Living Essentials' Ask Your Doctor claim was
deceptive. Living Essentials also challenges the trial court's penalty and award of
attorney fees. We affirm. 1
II.
Living Essentials produces and markets the energy drink 5-Hour ENERGY®.
During its advertising campaign, Living Essentials made numerous claims about the
efficacy of 5-Hour ENERGY®. Three of those claims are relevant to this appeal.
First, Living Essentials claimed that 5-Hour ENERGY® was "Superior to Coffee"
(Superior to Coffee claim). Specifically, Living Essentials claimed that "the key vitamins
and nutrients [in 5-Hour ENERGY®] work synergistically with caffeine to make the
biochemical or physiological effects last longer than caffeine alone." Second, Living
Essentials claimed that the decaf variety of 5-Hour ENERGY® provided energy,
alertness, and focus "for hours." (Decaf claim). Living Essentials provided the basic
message, if you do not like caffeine then "Decaf 5-Hour ENERGY®... can provide the
alertness you want without the 'caffeine feeling' you don't." Third, Living Essentials
implied that 73 percent of doctors would recommend 5-Hour ENERGY® (Ask Your
Doctor claim). In an ad that ran on national television, a spokesperson said
We asked over 3,000 doctors to review 5-hour Energy®, and what they
said is amazing. Over 73% who reviewed 5-hour Energy® said they
would recommend a low calorie energy supplement to their healthy
patients who use energy supplements. 73%. 5-hour Energy has 4
calories and is used over nine million times a week. Is 5-hour Energy right
for you? Ask your doctor. We already asked 3,000.

1

The State filed a motion to strike or disregard portions of appellants' opening and reply
briefs. Because the State prevailed in this appeal, it is unnecessary for us to consider the merits of this
motion. The State's motion is denied.

-2-

No. 76463-2-1/3
After an 11-day bench trial involving testimony and transcripts of testimony from
20 lay and expert witnesses and the admission of approximately 500 exhibits, the trial
court issued a 57-page decision including detailed findings of fact and conclusions of
law. Following FTC guidance, the trial court concluded that Living Essentials Superior
to Coffee, Decaf, and Ask Your Doctor claims were deceptive and violated the CPA.
With respect to the Superior to Coffee claim the trial court found that the real
takeaway was "that the combination of caffeine, B vitamins and amino acids would
provide energy that would last longer than consumers would experience from a cup of
premium coffee (and in some of the ads, longer than 3 or 4 cups of coffee)." The court
further found that "[t]he studies [Living Essentials presented] do not clearly establish
that 5-Hour ENERGY®'s vitamins and nutrients work synergistically with caffeine to
make these benefits last longer than they would last with caffeine alone." Living
Essentials' claim that "5-Hour ENERGY® works better than caffeine alone ... is
certainly plausible, given the science presented to the Court, but it remains a
hypothesis, not an established scientific fact." The court concluded that "Living
Essentials violated the [CPA] when it aired or published ads that represented that the
energy, alertness and from 5-hour ENERGY® lasts longer than a cup of coffee because
of the synergistic effects of caffeine, B vitamins and nutrients in the product."
The trial court also found that "Living Essentials lacks competent and reliable
scientific evidence to claim that decaf 5-Hour ENERGY® will generate energy and
alertness that 'lasts for hours."' The trial court concluded that "Living Essentials violated
the [CPA] when it claimed in a press release and on its web site that Decaf 5-hour
ENERGY® will provide energy, alertness and focus that lasts for hours."

-3-

No. 76463-2-1/4
Finally, the trial court determined that the "Ask-Your-Doctors" claim was
deceptive. The court found that the "net impression" from the ad was that "a substantial
majority of doctors believe 5-Hour ENERGY® is a safe and effective nutritional
supplement that doctors would recommend to their patients." The court noted that
"while the statistics displayed ... were literally true, the impression left by the ads was
not."
Based on the number of times the ads aired or the number of bottles of product
sold, the trial court imposed a $2,183,747 civil penalty and awarded the State its
attorney fees and costs. Living Essentials appeals.
II.
Living Essentials first raises multiple challenges to the trial court's findings and
conclusions that Living Essentials' Superior to Coffee, Decaf, and Ask Your Doctor
claims were deceptive and violated the CPA.
"[W]hether a particular action gives rise to a Consumer Protection Act violation is
reviewable as a question of law." Leingang v. Pierce County. Med. Bureau, 131 Wn.2d
133, 150, 930 P .2d 288 (1997). Whether a party committed the particular violation,
however, is reviewed under the substantial evidence test. Leingang, 131 Wn.2d at 150.
"Substantial evidence is evidence in sufficient quantum to persuade a fair-minded
person of the truth of the declared premise." Holland v. Boeing Co., 90 Wn.2d 384, 390,
583 P.2d 621 (1978). "The substantial evidence standard is deferential and requires the
court to view the evidence and reasonable inferences in the light most favorable to the
party who prevailed" below. Mansour v. King County, 131 Wn. App. 255, 263, 128 P.3d
1241 (2006).

-4-

No. 76463-2-1/5
Unchallenged findings of fact are verities on appeal. State v. Reader's Digest
Ass'n, Inc., 81 Wn.2d 259, 263-64, 501 P.2d 290 (1972). 2 Further, mere assertions of
error are not enough. When a challenged finding is unsupported by argument on
appeal, this court need not consider the assignment of error. Bryant v. Palmer Coking
Coal Co., 86 Wn. App. 204, 216, 936 P.2d 1163 (1997). 3 Even where the evidence
conflicts, the appellate court need only determine "whether the evidence most favorable
to the prevailing party supports the challenged findings." Prostov v. State, Dept. of
Licensing, 186 Wn. App. 795, 820, 349 P.3d 874 (2015). Finally, the reviewing court
"defer[s] to the trier of fact regarding witness credibility or conflicting testimony."
Weyerhaeuser v. Tacoma-Pierce County Health Dep't, 123 Wn. App. 59, 65, 96 P .3d
460 (2004). Reviewing courts will not reweigh the evidence or the credibility of
witnesses on appeal. Washington Belt & Drive Sys., Inc. v. Active Erectors, 54 Wn.
App. 612, 616, 774 P.2d 1250 (1989). 4

A.
Living Essentials' primary contention is that the trial court erred by relying on the
FTC's "prior substantiation doctrine" because it has not been adopted in Washington,
cannot be judicially adopted, and is inconsistent with Washington CPA law. We
disagree. A brief review of the CPA and FTC's prior substantiation doctrine is helpful.

2

Living Essentials does not assign error to numerous findings of fact. See, !2.:..9.:., Unchallenged
findings 1-9, 1, 13-14{d){6), 15-16{a)-(c)(1), 16(d{10-{4), and portions of 10, 16{c)(2), 16{d)(5)-(6), 17, 19,
20, 22.
3 Living Essentials assigns error to several findings but fails to provide argument in support
of the
assignment. See, !2.:..9.:., Findings 14(d)(7), 16(c)(2), 19{i), 20{d), 22{a), 22(a)(2)-{3).
4 Living Essentials assigns error to several of the trial court's credibility determinations and
weighing of evidence. See, !2.:..9.:., Findings 16, 16(c)(2), 16{d)(5)-{6), 17{c), 19, 20, 22.

-5-

No. 76463-2-1/6

1.
The CPA prohibits "unfair or deceptive acts or practices in the conduct of any
trade or commerce." RCW 19.86.020. The purpose of the CPA is "to protect the public
and foster fair and honest competition." RCW 19.86.920. The CPA is meant to be
liberally construed to serve this purpose. Short v. Demopolis, 103 Wn.2d 52, 60-61,
691 P.2d 163 (1984).
The Washington Attorney General may bring an enforcement action under the
CPA. The State must prove three elements: "(1) an unfair or deceptive act or practice,
(2) occurring in trade or commerce, and (3) a public interest impact." State v. Kaiser,
161 Wn. App. 705, 719, 254 P.3d 850 (2011 ). The State is not required to prove that
the unfair or deceptive advertisements actually injured consumers or that consumers
relied on deceptive ads when deciding whether to purchase or consume the advertised
products. Kaiser, 161 Wn. App. at 719. A CPA claim "does not require a finding of an
intent to deceive or defraud and therefore good faith on the part of the seller is
immaterial." Wine v. Theodoratus, 19 Wn. App. 700, 706, 577 P.2d 612 (1978).
The CPA does not define "unfair or deceptive acts or practice." Instead, our
Supreme Court has allowed the definition to evolve through the "gradual process of
judicial inclusion and exclusion." Klem v. Washington Mut. Bank, 176 Wn.2d 771, 785,
295 P.3d 1179 (2013). "Given that there is 'no limit to human inventiveness,' courts, as
well as legislatures, must be able to determine whether an act or practice is unfair or
deceptive to fulfill the protective purpose of the CPA." Klem, 176 Wn.2d at 786 (quoting
Panag v. Farmers Ins. Co. of Wash., 166 Wn.2d 27, 48, 204 P.3d 885 (2009)).

-6-

No. 76463-2-1/7
A claim under the CPA may be predicated upon (1) a per se violation of statute,
(2) an act or practice that has the capacity to deceive substantial portions of the public,
or (3) an unfair or deceptive act or practice not regulated by statute but in violation of
public interest. Klem, 176 Wn.2d at 787. "An act is deceptive if it is likely to mislead a
reasonable consumer." State v. Mandatory Poster, 199 Wn. App. 506, 512, 398 P.3d
1271 (2017}. "A plaintiff need not show that the act in question was intended to
deceive, but that the alleged act had the capacity to deceive a substantial portion of the
public." Hangman Ridge Training Stables, Inc. v. Safeco Title Insurance Company, 105
Wn.2d 778, 785, 719 P.2d 531 (1986). Further, a truthful statement "may be deceptive
by virtue of the 'net impression' it conveys." Panag, 166 Wn.2d at 50.
Washington's CPA was initially adopted in 1961 and modeled generally after
section 5 of the Federal Trade Commission Act (FTCA), 15 U.S.C. § 45(a)(1 );
Hangman Ridge, 105 Wn.2d at 783. As with the CPA, the FTCA broadly prohibits
"unfair or deceptive acts or practices." The CPA was intended to "complement the body
of federal law governing restraints of trade, unfair competition and unfair, deceptive, and
fraudulent acts or practices." RCW 19.86.920. As such, "in construing this act, the
courts [should] be guided by the final decisions of the federal courts and final orders of
the federal trade commission." RCW 19.86.920; State v. Black, 100 Wn.2d 793, 799,
676 P.2d 963 (1984) ("When the Legislature enacted the Consumer Protection Act, it
anticipated that courts would be guided by the interpretation given by federal courts to
their corresponding federal statutes.").
Washington courts have repeatedly adopted federal court interpretations of
section 5 of the FTCA when reviewing CPA cases. See Boeing Co. v. Sierracin Corp.,

-7-

No. 76463-2-1/8
108 Wn.2d 38, 57, 738 P.2d 665 (1987) (citing RCW 19.86.920) ("In the absence of
Washington cases discussing when assertion of trade secrets constitutes a violation of
antitrust laws, [courts] are guided by interpretations of the federal courts."); Fisher v.
World-Wide Trophy Outfitters, 15 Wn. App. 742, 748,551 P.2d 1398 (1976) (citing
Exposition Press, Inc. v. Fed. Trade Comm'n, 295 F.2d 869, 873 (2nd Cir. 1961) (using
the Second Circuit's interpretation of an unfair or deceptive act). See also Panag, 166
Wn.2d at 50 (quoting Sw. Sunsites, Inc. v. Fed. Trade Comm'n, 785 F.2d 1431, 1435
(9th Cir. 1986)) (Deception exists "if there is a representation, omission or practice that
is likely to mislead."); Blewett v. Abbott Labs, 86 Wn. App. 782, 787, 938 P.2d 842
(1997) ("The directive to be 'guided by' federal law does not mean we are bound to
follow it. But neither are we free to ignore it, and indeed in practice Washington courts
have uniformly followed federal precedent in matters described under the [CPA].").
Under section 5 of the FTCA, in order to prove that an advertisement is
deceptive, the FTC must establish that the advertisement (1) conveys a representation
through either express or implied claims; (2) that the representation is likely to mislead
consumers; and (3) that the misleading representation is material. Federal Trade
Comm'n v. Direct Mktg. Concepts, Inc., 569 F. Supp. 2d 285, 297 (D. Mass 2008), aff'd,
624 F.3d 1 (1st Cir. 201 0). "Neither proof of consumer reliance nor consumer injury is
necessary to establish a section 5 violation." Federal Trade Comm'n v. Freecom
Commc'ns, Inc., 401 F.3d 1192, 1203 (10th Cir. 2005). The FTC can prove that a
representation is likely to mislead consumers by establishing either (1) actual falsity of
express or implied claims ("falsity" theory); or (2) that the advertiser lacked a reasonable
basis for asserting the representation was true ("reasonable basis" theory). Federal

-8-

No. 76463-2-1/9
Trade Comm'n v. Pantron I Corp., 33 F.3d 1088, 1096 (9th Cir. 1994) (citing In the
Matter of Thompson Med. Co., 104 F.T.C. 648 (1984)); Federal Trade Comm'n v. John
Beck Amazing Profits, LLC, 865 F. Supp. 2d 1052, 1067 (C.D. Cal. 2012). 5
Under the reasonable basis theory, if an advertisement states or impliedly
suggests that a product successfully performs an advertised function or yields an
advertised benefit, the advertiser must have a "reasonable basis" for the claim. Federal
Trade Comm'n v. COORGA Nutraceuticals Corp., 201 F. Supp. 3d 1300, 1308-09 (D.
Wyo. 2016) (citing Pfizer, Inc., 81 F.T.C. 23 (1972)). Further, the advertiser must have
some recognizable substantiation for the representation prior to advertising it. John
Beck Amazing Profits, 865 F. Supp. 2d at 1067. Where an advertiser lacks adequate
substantiation, it necessarily lacks any reasonable basis for its claims and the
advertisement is deceptive as a matter of law. Direct Mkg. Concepts, Inc., 624 F.3d at
8. This is known as the FTC's prior substantiation doctrine.

2.
Living Essentials contends that the trial court erred by adopting the prior
substantiation doctrine-effectively creating a new per se unfair trade practice. We
agree that our Supreme Court has determined that it is for the Legislature, not the
courts, to declare whether a statutory violation is a per se unfair trade practice.
Hangman Ridge, 105 Wn.2d at 787. We disagree, however, that the trial court adopted
the prior substantiation doctrine as a new per se unfair trade practice.
Living Essentials relies primarily on this court's decision in State v. Pacific Health
Center. Inc., 135 Wn. App. 149, 143 P.3d 618 (2006). In Pacific Health, the State

5 Here, because the State was proceeding only under the reasonable basis theory, the trial court
did not analyze Living Essentials' claims under the falsity theory.

-9-

No. 76463-2-1/1 0
alleged that various alternative medicine practitioners violated the CPA because they
were practicing medicine, naturopathy, and acupuncture, without a license. Pacific
Health, 135 Wn. App. at 153. The State had argued that by engaging in health care
practices, the defendants represented that they possessed the expertise and training
that only licensed health care providers possessed-a misrepresentation and violation
of the CPA. The defendants argued that the State was attempting to create a new per
se violation of the CPA: practicing medicine without a license.
The Pacific Health court agreed with the defendants because, despite being
unlicensed, they were actually skilled at performing the tests and diagnoses that they
performed. The court concluded that the advertisements that claimed the defendants
were skilled at performing medical tests, but not asserting that they were licensed
doctors, were not deceptive. The court further concluded that if it were to find the ads
deceptive simply because the defendants were unlicensed, it would amount to a new
per se unfair trade practice. Pacific Health, 135 Wn. App. at 149.
In reaching its conclusion, the Pacific Health court analogized to Bowers v.
Transamerica Title Ins. Co., 100 Wn.2d 581, 675 P .2d 193 (1983). In Bowers, a title
insurance company prepared closing documents in preparation for a sale despite not
being licensed to practice law. The Pacific Health court explained that "[t]he crucial
point for our CPA analysis is not simply that [the appellants in Bowers] were unqualified
to practice law, but rather that the record demonstrated they were, in fact, not skilled in
preparing the very closing documents they held themselves out as qualified to prepare."
Pacific Health, 135 Wn. App. at 172.

-10-

No. 76463-2-1/11
The Pacific Health court's analysis of Bowers clarifies that a decision does not
risk creating a new per se unfair trade practice when, on the facts of the case, the
alleged violators' conduct actually constituted deception. In Pacific Health, the
unlicensed defendants were actually skilled at performing the tests and diagnosis for
which they had advertised. Therefore, to hold that they violated the CPA would have
created a new per se unfair trade practice because the doctor's advertisements were
not, in fact, deceptive. Whereas in Bowers, because the advertisements were actually
deceptive the case did not risk creating a new per se unfair trade practice.
Living Essentials' argument might be persuasive if the trial court had declared
that simply because Living Essentials lacked prior substantiation, its advertisements
were per se deceptive, without any analysis of whether the claims were actually
deceptive. But this is not what the trial court did. While the trial court explained the
FTC's prior substantiation doctrine as part of its conclusions of law, the court specifically
declined to rely only on prior substantiation:
The State argues that any scientific evidence developed or relied
upon after Living Essentials aired or published its ads is legally irrelevant
because the FTC guidelines required pre-claim substantiation. While this
Court acknowledges that both the FTC guidelines and federal case law
indicate that pre-claim substantiation is required, the Court also concludes
that subsequent scientific studies may shed light on pre-claim studies and
are thus relevant and material to the Court's CPA analysis.
More importantly, a review of the trial court's extensive findings of fact
demonstrates that the court carefully considered Living Essentials' preclaim
substantiation as well as an extensive list of postclaim studies and expert trial testimony
in making its findings. The trial court found-with respect to Living Essentials' Superior
to Coffee claim-that there was insufficient scientific evidence to support Living

-11-

No. 76463-2-1/12
Essentials' express claims that people who drink 5-hour ENERGY® will experience
hours of energy, alertness, and focus because the vitamins and nutrients extend the
effects of caffeine. As a result of the lack of scientific evidence, the trial court found the
ads materially misleading and in violation of the CPA.
Similarly, after reviewing both pre and postclaim studies and expert trial
testimony, the trial court found:
While there is competent and reliable scientific evidence to support a
claim that the Decaf 5-hour ENERGY® shot may provide a short-term
benefit in terms of energy, the science is insufficient to substantiate the
claim that this benefit will endure over a five hour period. For this reason,
the Court finds the Decaf Claims to be materially misleading and a
violation of the CPA.
Thus, while the trial court was appropriately guided by the FTC's prior
substantiation doctrine, it did not adopt the doctrine as a per se violation of the CPA.
Instead after weighing all of the evidence before it, the court found that Living
Essentials' Superior to Coffee and Decaf claims were materially misleading.

B.
Living Essentials next contends that application of the prior substantiation
doctrine is contrary to article I, section 5 of the Washington Constitution and the First
Amendment to the United States Constitution. We disagree.

1.
Living Essentials first argues that the trial court's standard for adequate
substantiation required "competent and reliable scientific evidence"-an
unconstitutionally vague standard for penalizing and suppressing speech. 6 Living

6

Living Essentials also argues that the trial court violated the First Amendment by shifting the
burden of proof and not requiring the government to prove Living Essentials' ads were misleading. Living
Essentials bases this claim on one isolated statement in the trial court's extensive findings and

-12-

No. 76463-2-1/13
Essentials argues that "competent and reliable" is just as vague as requiring "credible
and reliable" identification of a criminal suspect, which the U.S. Supreme Court has
found unconstitutional. See Kolendar v. Lawson, 461 U.S. 352, 103 S. Ct. 1855, 75 L.
Ed. 2d 903 (1983).
The due process clause of the Fourteenth Amendment requires that notice be
given of what is prohibited. Reader's Digest, 81 Wn.2d at 273. Whether "notice is, or is
not 'fair' depends on the subject matter to which it relates" and "'common intelligence' is
the test of what is 'fair warning."' Reader's Digest, 81 Wn.2d at 273 (quoting Connally v.
Gen. Constr. Co., 269 U.S. 385, 391, 46 S. Ct. 126, 70 L. Ed. 322 (1926)). "In the field
of regulatory statutes governing business activities, greater leeway is allowed in
applying the test." Reader's Digest, 81 Wn.2d at 273-74. Thus, statutes using words or
phrases well enough known to enable those expected to use them to correctly apply
them, or statutes that use words with a well settled common law meaning will be
sustained against a vagueness challenge. Reader's Digest, 81 Wn.2d at 273-74.
The phrase "competent and reliable scientific evidence" has been a benchmark
for determining whether ad claims have a reasonable basis since at least 1984. See
Sterling Drug, Inc. v. Federal Trade Comm'n, 741 F.2d 1146, 1156-57 (9th Cir. 1984)
(performance claims must be supported by "competent and reliable evidence."). Our
Supreme Court has held that where federal courts have "amassed an abundance of law
giving shape and definition" to the law, there is sufficiently well established meaning in
federal trade law to meet a constitutional challenge of vagueness. Reader's Digest, 81

conclusions and then contends that the court did not require the government to prove anything. Living
Essentials, fails, however to cite to anywhere in the trial court's findings or conclusions that actually
shifted the government's burden of proof. Its claim is without merit.

-13-

No. 76463-2-1/14
Wn.2d at 274. Given the weight of federal court decisions, FTC decisions, orders, and
guidance surrounding both the requirement of "competent and reliable scientific
evidence" and what advertisers may do to market dietary supplements in a fair and nondeceptive manner, the trial court did not err in following FTC guidance.

2.
Living Essentials argues next that article I, section 5 of the Washington State
Constitution affords greater protection of commercial speech than the First Amendment
and requires application of strict scrutiny.
Living Essentials contends that it is an open question whether article I, section 5
of the Washington Constitution provides broader protection than the First Amendment to
the United States Constitution. Living Essentials argues that the open nature of this
question means that this court must undergo a Gunwall analysis to determine whether
commercial speech is afforded greater protection under article I, section 5, than the First
Amendment. State v. Gunwall, 106 Wn.2d 54, 58, 720 P.2d 808 (1986).
While Living Essentials is correct that we use the Gunwall factors to analyze
whether the Washington Constitution provides a broader right than the Federal
Constitution, contrary to Living Essentials' claims, our Supreme Court has already
answered that question regarding commercial speech. In Nat'l Fed. of Retired Persons
v. Ins. Com'r., the Court determined that because 'Washington case law provides no
clear rule for constitutional restrictions on commercial speech ... [w]e therefore follow
the interpretative guidelines under the federal constitution." 120 Wn.2d 101, 118, 838
P.2d 680 (1992) (Describing the test that the United States Supreme Court established
in Central Hudson Gas & Elec. Corp. v. Pub. Serv. Comm'n of New York, 447 U.S. 557,

-14-

No. 76463-2-1/15
563, 100 S. Ct. 2343, 65 L. Ed. 2d 341 (1980)). See also, Ino Ino Inc. v. City of
Bellevue, 132 Wn.2d 103, 116, 937 P .2d 154 (1997) ("The federal analysis also applies
when confronting [article I, section 5] challenges to regulations of commercial speech.").
Living Essentials cites to other Washington cases as support for its assertion that
it is still an open question whether commercial speech is afforded more protection in
Washington than federally. See Soundgarden v. Eikenberry, 123 Wn.2d 750, 764, 871
P .2d 1050 (1994) (declining to address the scope of protection under article 1, section
5, because the parties "have not addressed the ... [Gunwall] factors.") and Kitsap
County v. Mattress Outlet, 153 Wn.2d 506, 511 n.1, 104 P.3d 1280 (2005) (emphasis
added) ("Although our state constitution may be more protective of free speech than the
federal constitution, it is unnecessary to consider a state constitutional analysis because
[the ordinance] ... fails the minimum protection provided under the federal
constitution."). None of the cases Living Essentials cites overrules or meaningfully
distinguishes Nat'l Fed. of Retired Persons or Ino Ino. If anything, the cases that Living
Essentials cites further supports the Supreme Court's statement in Nat'l Fed. of Retired
Persons that "Washington case law provides no clear rule for constitutional restrictions
on commercial speech." 120 Wn.2d at 118. Accordingly, the Supreme Court's decisive
language that we are to apply the four-part test from Central Hudson remains binding
authority on this court. See Nat'l Fed. of Retired Persons, 120 Wn.2d at 118; lno lno,
132 Wn.2d at 116.
In Central Hudson, the United States Supreme Court determined that commercial
speech is entitled to First Amendment protection. 447 U.S. at 566. However, because
commercial speech is not entitled to as much protection as noncommercial speech, the

-15-

No. 76463-2-1/16
Court established a four-part test to determine if a regulatory burden on commercial
speech is constitutional. Central Hudson, 447 U.S. at 566. In analyzing this question, a
court must consider: (1) whether the speech concerns a lawful activity and is not
misleading, (2) whether the government's interest is substantial, (3) whether the
restriction directly and materially serves the asserted interest, and (4) whether the
restriction is no more extensive than necessary. Central Hudson, 447 U.S. at 566.
Applying Central Hudson to this case, Living Essentials' argument that the prior
substantiation doctrine is unconstitutional fails at the first prong. The United States
Supreme Court has continually emphasized that in order to be constitutionally
protected, commercial speech must not be misleading or concern unlawful activity. See
In re R.M.J., 455 U.S. 191, 203, 102 S. Ct. 929, 71 L. Ed 2d 64 (1982) ("Misleading
advertising may be prohibited entirely"). The Supreme Court has also held that the
government may even regulate potentially deceptive speech without violating the First
Amendment. See Friedman v. Rogers, 440 U.S. 1, 16, 99 S. Ct. 887, 888, 59 L. Ed. 2d
100 (1979) (In upholding a Texas statute that banned the use of trade names the court
concluded that "the use of a trade name ... enhances the opportunity for misleading
practices .... Rather than stifling commercial speech, [the challenged statute] ensures
that information ... will be communicated more fully and accurately to consumers than
it had been in the past.").
Living Essentials concedes that several federal Circuit Courts of Appeal have
upheld the prior substantiation doctrine against similar constitutional challenges. See
Jay Norris, Inc. v. Federal Trade Comm'n, 598 F.2d 1244 (2d Cir. 1979); United States
v. Readers' Digest Ass'n, 662 F.2d 955 (3d Cir. 1981 ); Sears, Roebuck & Co. v. Federal

-16-

No. 76463-2-1/17
Trade Comm'n, 676 F.2d 385 (9th Cir. 1982)). Living Essentials argues that these
cases should be disregarded because they were "issued at the dawn of First
Amendment protection of commercial speech," but fails to explain why this matters.
Living Essentials has not pointed to any case law purporting to overrule or meaningfully
distinguish these cases and the Central Hudson analysis suggests that the prior
substantiation doctrine remains just as constitutional today as it was when these cases
were first decided.

c.
Living Essentials next contends that no substantiation was necessary because
the Superior to Coffee and Decaf claims are "mere puffery" and therefore not actionable
under the CPA.
The FTC "generally will not bring advertising cases based on subjective
claims ... [or] cases involving obviously exaggerated or puffing representations, i.e.,
those that the ordinary consumers do not take seriously." 7 Puffery is defined as "either
vague or highly subjective [claims] and, therefore, incapable of being substantiated."
Federal Trade Comm'n v. Nat'l Urological Grp., Inc., 645 F.Supp.2d 1167, 1205 (N.D.
Ga. 2008) aff'd, 356 F. App'x 358 (11th Cir. 2009). 8
Living Essentials' attempt to characterize its claims as subjective by highlighting
the use of the word "feeling" in its advertisements is unpersuasive. Living Essentials
claimed that the unique blend of vitamins and amino acids in 5-Hour ENERGY® worked

7

FTC POLICY STATEMENT ON DECEPTION 4 (OCT. 14, 1983),
HTIPS://WWW.FTC.GOV/SYSTEM/FILES/DOCUMENTS/PUBLIC STATEMENTS/41 0531/831 014DECEPTIONSTMT.PDF
[HTIPS://PERMA.CC/XEU9-NY6R].
8 Citing Bureau of Consumer Prot., FTC, Dietary Supplements: An Advertising Guide for Industry
(2001 ), https://www.ftc.gov/system/files/documents/plain-language/bus09-dietary-supplementsadvertisinq-gu ide-industry. pdf [https://perma.cc/4XDP- VL 7J]).

-17-

No. 76463-2-1/18
synergistically with caffeine to enhance the duration of the energy, alertness, and focus
derived from caffeine alone. These are factual representations that are capable of
being tested. "Living Essentials intentionally promoted the product's ingredients as
changing the way the body functioned [and] [i]t promoted the product as a healthy way
to achieve these physiological results." We agree with the trial court that Living
Essentials' claims were factual representations and not mere puffery.
Living Essentials also contends that the FTC does not require substantiation
where the product involved is "frequently purchased, easily evaluated by consumers,
and inexpensive." But this point disregards the underlying policy purposes of the FTC's
position: "[t]here is little incentive for sellers to misrepresent ... in these circumstances
since they normally would seek to encourage repeat purchases. Where ... market
incentives place strong constraints on the likelihood of deception, the [FTC] will examine
a practice closely before proceeding." FTC, STATEMENT ON DECEPTION at 5.
However, in this case the incentive to mislead consumers is still present. There
is no way for the consumer to know which ingredients are acting to make the consumer
feel more energized. While the evidence suggests that it is the caffeine that is providing
the specific effects that the consumer is feeling, Living Essentials expressly advertised
that it is 5-Hour ENERGY®'s non-caffeine ingredients that are acting. Therefore, the
policy concerns underlying the FTC's guidance do not apply here.

D.
Under the FTC's prior substantiation doctrine, the court must determine the
appropriate level of substantiation required for a claim to have a reasonable basis.
Living Essentials contends the trial court erred by applying the FTC substantiation

-18-

No. 76463-2-1/19
standard for claims that "relate to consumer health." While we agree that the trial court
misstated the applicable standard, contrary to Living Essentials' argument, the error
does not mandate a reversal.
The trial court found that "Living Essentials' ads relate to consumer health" and
therefore "require a relatively high level of substantiation." 9 Under this relatively high
level of substantiation standard, the court noted that Living Essentials' "Superior to
Coffee" claim was "certainly plausible ... [but was] not an established scientific fact."
Further, the trial court concluded that "[w]hile there is competent and reliable scientific
evidence to support a claim that the Decaf 5-Hour ENERGY® shot may provide a shortterm benefit in terms of energy, the science is insufficient to substantiate the claim that
this benefit will endure over a five hour period." These statements misstated the
applicable standard.
The FTC defines a health claim as a "representation about the relationship
between a nutrient and a disease or health-related condition." FTC, DIETARY
SUPPLEMENT at n.2. When an advertisement alleges that a product has a relationship to
a disease or health related condition, the FTC requires a relatively high level of
substantiation. See POM Wonderful v. Federal Trade Comm'n, 777 F.3d 478, 500
(D.C. Cir. 2015) (the FTC "bars representations about a product's general health
benefits unless the representation is non-misleading and backed by 'competent and
reliable scientific evidence that is sufficient in quality and quantity to substantiate that
the representation is true.").

9 (Citing FTC, Dietary Supplements: An Advertising Guide for Industry (2001) available at
https://www.ftc.gov/system/files/documents/plain-language/bus09-dietary-supplements-advertising-guideindustry.pdf).

-19-

No. 76463-2-1/20
It is undisputed that Living Essentials markets and advertises 5-Hour ENERGY®
as a dietary supplement. However, to conclude that 5-Hour ENERGY®'s claims are
also health claims was erroneous. Living Essentials has not made any claims that 5Hour ENERGY® has any direct impact on a disease or health related condition. And to
require that Living Essentials establish scientific facts substantiating its claims exceeds
even the FTC's standard. As the amici correctly explained "the competent-and-reliable
standard does not envision scientific unanimity and certainly does not require, as the
trial court held, that a claim be 'established scientific fact."'
Similarly, the trial court erred by stating that Living Essentials had to substantiate
that Decaf 5-hour ENERGY® lasted for five hours. The FTC requires that "the
substantiation must be relevant to the claimed benefits[,]" and Living Essentials never
advertised that Decaf 5-Hour ENERGY® lasted for five hours, but rather than it lasted
for hours.
However, because this court reviews CPA violations de novo, the trial court's
reliance on an erroneous standard does not mandate a reversal; substantial evidence
exists to support the trial court's conclusion that Living Essentials' ads violated the CPA.
We "defer to the trier of fact regarding witness credibility or conflicting testimony"
Weyerhaeuser, 123 Wn. App. at 65, will not reweigh the evidence or the credibility of
witnesses on appeal, Washington Belt & Drive Sys., Inc., 54 Wn. App. at 616, and need
only determine "whether the evidence most favorable to the prevailing party supports
the challenged findings." Prostov, 186 Wn. App. at 820. Therefore, based on our
independent review of the record and viewing the evidence in the light most favorable to
the State, we conclude that reversal is not warranted. Mansour, 131 Wn. App. at 263

-20-

No. 76463-2-1/21
In order to satisfy the CPA, an advertiser must have a reasonable basis for its
claim. "Under the reasonable basis theory, the advertiser must have had some
recognizable substantiation for the representation prior to making it an advertisement."
John Beck Amazing Profits, LLC, 865 F. Supp. 2d at 1067. As the trial court found,
Living Essentials failed to present any evidence that "anyone with any science training
ever assessed the ad claims and the science backing up those claims against the FTC
substantiation guidelines." And we agree with the trial court that "asking an advertising
director who lacks any scientific or medical training to conduct internet research is [not]
adequate substantiation."
As for Living Essentials' Superior to Coffee claim, first, its expert Dr. David
Kennedy conceded that there is no experimental evidence showing that the addition of
a multivitamin to a caffeinated energy drink will cause greater improvement in physical
and cognitive performance than can be attributed to the effects of caffeine alone.
Further, Living Essentials points to no evidence that directly supports its Superior to
Coffee claim. "Dr. Kennedy's summary of the scientific literature does show some
different physiological results from caffeine plus vitamins or caffeine plus amino acids,
but the results are not the benefits touted by Living Essentials." Specifically, the Giles
Study shows that taurine counteracts caffeine, rather than enhancing its effects.
Further, neither the Glade nor NERAC studies examined whether combining the specific
ingredients in 5-Hour ENERGY® with caffeine will cause the energy, alertness, and
focus effects of caffeine to last longer than caffeine alone.
Living Essentials pointed to the 2013 Nagrecha study, the 2015 Molnar study,
and the 2015 Paulus study as support for its Superior to Coffee claim. But, as the trial

-21-

No. 76463-2-1/22
court found, none of those studies are sufficiently relevant to substantiate Living
Essentials' claim. "The Nagrecha study has limited relevance because its test subjects
underwent only one round of testing 40 minutes after ingesting" 5-Hour ENERGY®.
The Paulus study had "methodological problems ... [that were] significant enough to
render [its] results unreliable." The Molnar study was insufficient to substantiate Living
Essentials' claims because there was significant disagreement between the testifying
experts as to the relevance of the Molnar Study and, as the trial court found, the
Bloomer Study "undercut the reasonability of relying on Molnar as substantiation for
Living Essentials' claims."
Finally, the Medicus study does not support 5-Hour ENERGY®'s Superior to
Coffee claim. The trial court found Dr. Tom Mclellan's testimony to be credible that
there is no basis for concluding that the Medicus study's results "were attributable to
any ingredient other than caffeine." As the testifying experts pointed out, the Medicus
study was designed in a flawed manner that overemphasized its results with respect to
5-Hour ENERGY®. The study was not designed "to determine whether the noncaffeine ingredients in 5-Hour ENERGY® led to improved performance[,]" and the
results "do not show that consuming 5-Hour ENERGY® improved any of the test
subjects' cognitive functioning ... above baseline."
We conclude that there is sufficient evidence in the record to support the trial
court's determination that Living Essentials' Superior to Coffee claim is unsubstantiated.
There is also no substantiation in the record to show that Decaf 5-Hour
ENERGY® lasts "for hours." In support of the Decaf claim, Dr. Sanford Bigelow testified
that Living Essentials acted reasonably in relying on the 2010 Glad Report and the 2007

-22-

No. 76463-2-1/23
NERAC Report as substantiation. But the trial court found that Dr. Bigelow's testimony
was not credible. The Glade report relied on studies that tested doses of 3000mg or
more of taurine but Decaf 5-Hour ENERGY® contains only 483mg of taurine; a
differentiation that fatally undermines Dr. Michael Glade's conclusions because the FTC
specifically cautions advertisers from relying on studies the conclusions of which are
based on very different dosages. FTC, DIETARY SUPPLEMENTS at 14, 16.
Dr. Kennedy also testified that the 2015 Shah study supported Living Essentials'
Decaf claims. But "the chart on which Dr. Kennedy relie[d] actually show[ed] that the ...
test results at the 3 hour mark were not statistically significant." Further, the 2013 Kurtz
study also contradicts Living Essentials' claim because it found that "consumers
drinking Decaf 5-Hour ENERGY® experienced no energy benefits from the ingredients
in the drink."
While the trial court may have been incorrect in saying that Living Essentials had
to show that Decaf 5-Hour ENERGY® lasted for 5-hours, there is sufficient evidence in
the record to support the trial court's determination that Living Essentials' Decaf Claim
was deceptive.

E.
Living Essentials finally argues that the trial court erred in determining that its Ask
Your Doctor claim was deceptive.
The trial court found that despite the words in the Ask Your Doctor ad being
literally true, the net impression-that 73 percent of doctors had specifically
recommended 5-Hour ENERGY® as a healthy and safe dietary supplement-was
deceptive. The court first reasoned that Living Essentials' specific goal in creating this

-23-

No. 76463-2-1/24
ad, as its advertising manager admitted at trial, was to indicate that doctors would
recommend 5-Hour ENERGY®. Second, the surveys that Living Essentials used were
specifically designed to elicit a yes response because saying no "suggested that the
responding doctor would instead recommend a high fat, high calorie, or high sodium
energy supplement." And that "Living Essentials presented the statistics in a way that
would lead a reasonable viewer to believe that 73 [percent] of 3,000 doctors surveyed
would recommend this product to their patients" when it was actually 73 percent of 503
doctors.
Living Essentials contends that its expert testimony alone is sufficient to
establish what message the reasonable consumer would take away from the ad and
that there is insufficient evidence in the record to support the trial court's determination.
We disagree.
Because "[a]n advertisement's meaning is a question of fact," FTC v. Nat'l
Urological Grp., Inc., 645 F.Supp.2d at 1189, and a truthful statement "may be
deceptive by virtue of the 'net impression' it conveys[,]" Panag, 166 Wn.2d at 50, the
trial court did not err by concluding that the net impression from the "Ask-Your-Doctors"
ad was deceptive. "If an advertiser asserts that it has a certain level of support for an
advertised claim, it must be able to demonstrate that the assertion is accurate." FTC,
DIETARY SUPPLEMENTS at 9. "Advertising should not ... suggest greater scientific
certainty than actually exists." FTC, DIETARY SUPPLEMENTS at 16. "In determining the
meaning of an advertisement ... the important criterion is the net impression that it is
likely to make on the general populace." Grolier, Inc., 91 F.T.C. 315, 430 (1978), order

-24-

No. 76463-2-1/25
set aside and remanded on other grounds, 615 F.2d 1215 (9th Cir. 1980), modified, 98
F.T.C. 882 (1981 ), reissued, 99 F.T.C. 379 (1982).
In reviewing ads, the court "will often be able to determine the meaning through
an examination of the representation itself, including an evaluation of such factors as
the entire document, the juxtaposition of various phrases in the document, the nature of
the claim, and the nature of the transaction." FTC, POLICY STATEMENT ON DECEPTION at
2. "When a seller's representation conveys more than one meaning to reasonable
consumers, one of which is false, the seller is liable for the misleading interpretation."
Nat'l Comm'n on Egg Nutrition, 88 F.T.C. 89, 185 (1976), modified, 92 F.T.C. 848
(1978)
Here, the State's witness, Dr. Anthony Pratkanis, an expert in the science of
consumer behavior and persuasion tactics, testified "that the clear takeaway from these
ads was that doctors would recommend 5-Hour ENERGY®." Further, Dr. Pratkanis
testified that Living Essentials' "survey questions were biased, leading, and designed to
elicit a limited response." The trial court did not err by allowing Dr. Pratkanis's expertise
to help guide its ultimate conclusions. The key question that the trial court had to
answer was what the reasonable consumer would have taken away from Living
Essentials' ad. FTC, POLICY STATEMENT ON DECEPTION at 1-2 ("We examine
[advertisements] from the perspective of a consumer acting reasonably in the
circumstances ....To be deceptive the representation, omission or practice must be
likely to mislead reasonable consumers under the circumstances."). Here, there is
sufficient evidence in the record-including Dr. Pratkanis's testimony and the text of the

-25-

No. 76463-2-1/26
"Ask-Your-Doctors" ad itself-to support the trial court's conclusion that the reasonable
consumer would have been misled by Living Essentials' claim.
Ill.
Living Essentials next contends that the trial court erred by imposing more than
$2 million in penalties. We disagree.
We review the trial court's imposition of a civil penalty for an abuse of discretion.
State v. Ralph Williams' N.W. Chrysler Plymouth, Inc., 87 Wn.2d 298, 553 P.2d 423
(1976) (Ralph Williams II). An abuse of discretion exists when no reasonable person
would take the position adopted by the court. Griggs v. Averbeck Realty, 92 Wn.2d
576, 584, 599 P.2d 1289 (1979).
After finding that Living Essentials had violated the CPA, the trial court assessed
a $2,183,747 civil penalty against Living Essentials. First, the court concluded that "the
most appropriate method of determining the total number of violations for the deceptive
advertisements is to determine the number of times the deceptive advertisements were
aired in Washington" within the statute of limitations period. The Superior to Coffee
claim was included in two different ads that ran in Washington 975 and 1,040 times,
respectively. The Ask-Your-Doctor ad ran 19,716 times in Washington.
As for the Decaf claim, the court concluded that Living Essentials had made
deceptive claims in its press release, press kit, and on the bottle packaging, but had not
expressly advertised those claims in Washington. The court determined that the press
release, dated 2008, was outside of the limitation period. Similarly, the court found
there was no credible evidence introduced to show that the press kit was ever

-26-

No. 76463-2-1/27
distributed in Washington. However, the court did conclude that deceptively packaged
bottles of decaf 5-Hour ENERGY® were sold in Washington 2,482 times. 10
Then, the court determined that a civil penalty of $100 per violation for the
deceptive advertisements and $4.29 per decaf bottle sold was an appropriate penalty.
In determining the proper amount of penalty to assess per violation, the trial court found
the following factors significant: (1) Living Essentials generated a substantial amount of
revenue in Washington; (2) 5-Hour ENERGY® posed a high risk to the public because it
is consumed, so there is no way to reverse the impact such a product may have on an
individual; and (3) Living Essentials spent more time trying to substantiate its claims
after marketing its products in Washington than before. Accordingly, the court assessed
a $1,971,600 penalty for the Ask-Your-Doctor claim, a $201,500 penalty for the Superior
to Coffee claim, and a $10,647 penalty for the decaf packaging, equating to a total civil
penalty of $2,183,747.
RCW 19.86.140 provides that "[e]very person [(including corporations)] who
violated [the CPA] shall forfeit and pay a civil penalty of not more than two thousand
dollars for each violation." Washington courts recognize two basic tenets of trade law in
effectuating the purpose of chapter 19.86 RCW. "First, no one should be permitted to
profit from unfair and deceptive conduct. ... Second, fair dealing must be encouraged
at all stages of commerce." (Citing State v. Ralph Williams' N.W. Chrysler Plymouth,
Inc., 82 Wn.2d 265, 510 P.2d 233 (1973) (Ralph Williams 1).

10

Living Essentials sold $10,648 worth of decaf 5-Hour ENERGY® in Washington. The court
estimated that a reasonable per bottle price was $4.29, and therefore concluded that Living Essentials
sold approximately 2,482 bottles of decaf 5-Hour ENERGY® in Washington (1 0,648 I 4.29 = 2482).

-27-

No. 76463-2-1/28
While RCW 19.86.140 provides that a statutory penalty for violating the CPA is
mandatory, it leaves the amount of the penalty and the factors to consider within the trial
court's discretion. Ralph Williams II, 87 Wn.2d at 314. Here, the trial court reasoned
that "penalties should be large enough to deter future violations and to ensure that
defendants do not profit from the deceptive advertising."
Living Essentials asserts that the penalty violates the excessive fines clause of
the U.S. Constitution. See Timbs v. Indiana, No. 17-1091, slip op. at 2 (U.S. Feb. 20,
2019) (holding that "[t]he Excessive Fines Clause [of the Eight Amendment]
is ... incorporated by the Due Process Clause of the Fourteenth Amendment."). Under
the excessive fines clause, civil penalties may not be "grossly disproportional to the
gravity of a defendant's offense." United States v. Bajakajian, 524 U.S. 321, 334, 119
S. Ct. 2028 141 L. Ed. 2d 314 (1998). Living Essentials fails to show how assessing a
$100 per violation penalty, despite being statutorily authorized to assess up to $2000
per violation, is grossly disproportional. Courts have "consistently found that civil
penalty awards in which the amount of the award is less than the statutory maximum do
not run afoul of the Excessive Fines Clause." U.S. v. Mackby, 221 F. Supp. 2d 1106,
1110 (N.D. Cal. 2002).
Living Essentials also contends that, under the due process clause, the trial court
should have considered (1) the degree of reprehensibility, (2) the award compared to
the harm, and (3) the amount of the award compared to other cases. BMW of N.A., Inc.
v. Gore, 517 U.S. 559, 116 S. Ct. 1589 134 L. Ed. 2d 809 (1996). Using this analysis,
Living Essentials argues that the fine here violated the due process clause because it
was grossly disproportionate to other CPA violations. See State v. WWJ Corp., 138

-28-

No. 76463-2-1/29
Wn.2d 595, 980 P.2d 1257 (1999) and Ralph Williams II, 87 Wn.2d at 306-09. Living
Essentials' argument fails for two reasons.
First, this court has already expressly rejected Living Essentials' argument. See
Mandatory Poster, 199 Wn. App. at 527 (citing Perez-Farias v. Global Horizons. Inc.,
175 Wn.2d 518, 533-34, 286 P.3d 46 (2012)) (rejecting the argument that BMW
compelled reversing the trial court's assessment of a civil penalty because "our
Supreme Court expressly declined to apply the [BMW] factors to cases involving
statutory damages."). Second, the cases that Living Essentials cites actually stand for
the opposite proposition. In Ralph Williams II, the court awarded civil penalties between
$250 and $2000 per violation. 87 Wn.2d at 316, n.11. In WWJ, the court awarded a
penalty of $2000 per violation. 138 Wn.2d at 598. Here, the court assessed a penalty,
on average, of just $90 per violation. The only reason that the total penalty here is
significantly higher than in the cited cases is because Living Essentials violated the CPA
more than 24,000 times. In essence, Living Essentials is suggesting that the penalty is
unconstitutionally excessive because they violated the statute too many times. We
decline to adopt this interpretation of the due process clause.
We conclude that the trial court's assessment of $2,183,747 in civil penalties for
Living Essentials' 24,213 individual violations of the CPA was not an abuse of
discretion.
IV.
Living Essentials finally argues that the trial court abused its discretion in its
award of attorney fees. We disagree.

-29-

No. 76463-2-1/30
There are two relevant inquires in determining an award of attorney fees: first,
whether the prevailing party is entitled to legal fees, and second, whether the award of
attorney fees is reasonable. Public Util. Dist. 1 v. International Ins. Co., 124 Wn.2d 789,
814, 881 P.2d 1020 (1994). Whether a party is legally entitled to recover attorney fees
is a question of law that we review de novo. King County v. Vinci Constr. Grands
Projets/Parsons RCI/Frontier-Kemper JV, 188 Wn.2d 618, 625, 398 P.3d 1093 (2017).
Whether the amount of fees awarded was reasonable is reviewed for an abuse of
discretion.
Living Essentials does not dispute that the prevailing party in a CPA action is
entitled to an award of attorney fees. RCW 19.86.080(1) provides that "the prevailing
party [in a CPA action] may, in the discretion of the court, recover the costs of said
action including a reasonable attorney's fee." In interpreting the term "prevailing party,"
the Washington Supreme Court has taken guidance from federal courts. "[A] plaintiff
becomes 'a prevailing party... [i]f the plaintiff has succeeded on any significant issue in
litigation which achieve[ d) some of the benefit the parties sought in bringing suit."'
Parmelee v. O'Neel, 168 Wn.2d 515, 522, 229 P.3d 723 (201 0) (citing Texas St.
Teachers Ass'n v. Garland Independent School Dist., 489 U.S. 782, 109 S. Ct. 1486,
103 L. Ed. 2d 866 (1989)). "[T]he touchstone of the prevailing party inquiry [is] the
material alteration of the legal relationship of the parties in a manner which Congress
sought to promote in the fee statute." Parmelee, 168 Wn.2d at 522 (citing Texas St.
Teachers Ass'n, 489 U.S. at 792-93).
"Central to the calculation of an attorney fees award ... is the underlying
purpose of the statute authorizing the attorney fees." Brand v. Dep't of Labor & Indus,

-30-

No. 76463-2-1/31
139 Wn.2d 659, 667, 989 P.2d 111 (1999). Awarding the State its fees and costs after
a CPA action will"encourage an active role in the enforcement of the [CPA,] places the
substantial costs of these proceedings on the violators of the act, and [will] not drain [the
State's] public funds." Ralph Williams II, 87 Wn.2d at 314-15.
Below, the trial court determined that the State of Washington was the prevailing
party and therefore entitled to recover its attorney fees and costs. The State brought
suit because it believed that Living Essentials had violated the CPA, which the trial court
ultimately agreed it had. That the State originally alleged more violations of the CPA
than were ultimately found at trial does not change the fact that the State was
successful in proving that Living Essentials had violated the CPA. As such, the State
succeeded on a significant issue in this case: whether Living Essentials had violated the
CPA. Therefore, the State was the prevailing party below.
Further, awarding the State its attorney fees and costs is consistent with the
underlying purpose of the CPA. This award will help to encourage the Attorney
General's active role in CPA enforcement actions, which in turn will help to protect the
public from untrue and deceptive advertisements.
Lastly, the trial court did not err in calculating the amount of fees awardable in
this case. The trial court awarded the State $1,886,866.71 in attorney fees and
$209,125.92 in costs. The trial court found that the State had reasonably incurred such
a substantial amount of attorney fees and costs based on the "lengthy and complex
nature of the litigation." Further, the court reduced the original amount of fees and costs
that the State had requested in order to "reflect time spent on unsuccessful motions or

-31-

No. 76463-2-1/32
other duplicative time. " Accordingly, the court found that there was "no basis to reduce
the request" any further.
While Living Essentials argues that the court should have further reduced the
award because the State only prevailed on some of its claims , the trial court expressly
stated that it had already taken that into account. In fact , the court reduced the fee
award by more than $40,000 "to reflect time spent on unsuccessful motions or other
dupl icative time ." The trial court's finding that there is no basis to reduce the award any
further was not an abuse of its discretion .

Fees on Appeal
Both parties have requested their fees on appeal , and RCW 19.86.080(1) allows
this court to award fees to the prevailing party. Because the State is the prevailing party
on appeal it is entitled to its reasonable attorney fees and costs on appeal subject to
compliance with RAP 18.1.
We affirm .

1P!auq 'dc.:r
WE CONCUR:

-32-

EXHIBIT B

THE SUPREME COURT OF WASHINGTON
STATE OF WASHINGTON,
Respondent,
v.
LIVING ESSENTIALS, LLC, et al.,
Petitioners.
______________________________________

)
)
)
)
)
)
)
)
)
)
)
)

No. 97324-5
ORDER
Court of Appeals
No. 76463-2-I

Department II of the Court, composed of Chief Justice Fairhurst and Justices Madsen,
Stephens, González and Yu, considered at its October 2, 2019, Motion Calendar whether review
should be granted pursuant to RAP 13.4(b) and unanimously agreed that the following order be
entered.
IT IS ORDERED:
That the petition for review is denied and the Respondent’s request for attorney fees for
filing an answer to the petition for review is granted. The Respondent is awarded reasonable
attorney fees and expenses pursuant to RAP 18.1(j). The amount of the attorney fees and expenses
will be determined by the Supreme Court Clerk pursuant to RAP 18.1. Pursuant to RAP 18.1(d),
the Respondent should file an affidavit with the Clerk of the Washington State Supreme Court.
DATED at Olympia, Washington, this 3rd day of October, 2019.
For the Court

EXHIBIT C

The Honorable Beth M. Andrus
Trial Date: August 22, 2016

STATE OF WASHINGTON
KING COUNTY SUPERIOR COURT
STATE OF WASHINGTON,

NO. 14-2-19684-9 SEA

Plaintiff,

COURT’S  MEMORANDUM
DECISION

v.
LIVING ESSENTIALS, LLC, a Michigan
limited liability company, and INNOVATION
VENTURES, LLC, a Michigan limited
liability company,
Defendants.

Table of Contents
A.

INTRODUCTION ........................................................................................................... 3

B.

ISSUES ............................................................................................................................. 3
1.

Did Living Essentials violate the CPA by making deceptive and/or unfair
representations in marketing and promotional materials that the non-caffeine
ingredients in its Original, Extra Strength and Decaf 5-Hour ENERGY®
provide energy, alertness and focus (the Vitamins Claim)? ...................................... 3

2.

Did Living Essentials violate the CPA by making deceptive and/or unfair
representations in marketing and promotional materials that the effects of
Original and Extra Strength 5-Hour ENERGY® are superior to consuming the
equivalent amount of coffee and other sources of caffeine (the Superior to
Coffee Claim)? ........................................................................................................... 3

3.

Did Living Essentials violate the CPA by making deceptive and/or unfair
representations in marketing and promotional materials that Decaf 5-Hour
ENERGY® provides energy, alertness and focus (the Decaf Claim)? ..................... 4

MEMORANDUM DECISION - 1

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

4.

Did Living Essentials violate the CPA by making deceptive and/or unfair
representations in marketing and promotional materials that consumers will not
experience  a  “crash”  after  drinking  5-Hour ENERGY® (the Crash Claim)? ........... 4

5.

Did Living Essentials violate the CPA by making deceptive and/or unfair
representations  in  its  “Ask  Your  Doctor”  advertising  campaign  by  implying  that  
doctors recommended the use of 5-Hour ENERGY® (the Ask Your Doctor
Claim)? ....................................................................................................................... 4

C.

SUMMARY OF DECISION .......................................................................................... 4

D.

FINDINGS OF FACT ..................................................................................................... 4

E.

F.

1.

Procedural History ..................................................................................................... 4

2.

Living  Essentials’  Dietary  Supplement  Products ...................................................... 5

3.

The Nutritional Science ............................................................................................. 5

4.

Living  Essentials’  Ad  Claims .................................................................................. 10

5.

Living  Essentials’  Claim  Substantiation .................................................................. 21

6.

Post-Claim Scientific Evidence ............................................................................... 27

7.

The Blonz/McLellan/Kennedy Scientific Disputes ................................................. 35

8.

Living  Essentials’  expert  testimony  on  substantiation  standard  of  care  and  
advertising subjectivity analysis. ............................................................................. 42

APPLICABLE PRINCIPLES OF LAW ..................................................................... 44
1.

Unfair or Deceptive Act or Practice......................................................................... 44

2.

FTC Advertising Substantiation Requirement ......................................................... 45

3.

Materiality ................................................................................................................ 49

ANALYSIS ..................................................................................................................... 50

G.

1.

Living  Essentials’  Vitamin  Claims  are  not  deceptive. ............................................. 50

2.

Living  Essentials’  Superior  to  Coffee  Claims  are  deceptive. .................................. 50

3.

The Decaf ads are deceptive. ................................................................................... 54

4.

The  “No  Crash”  ads  are  not  deceptive. .................................................................... 55

5.

The Ask Your Doctor Ads were deceptive under the CPA. .................................... 56

CONCLUSIONS OF LAW........................................................................................... 57

MEMORANDUM DECISION - 2

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

MEMORANDUM DECISION
A. INTRODUCTION
Plaintiff State of Washington (“the State”) filed this lawsuit against Defendants Living
Essentials, LLC and Innovation Ventures, LLC (referred to jointly as “Living Essentials”), seeking
injunctive and declaratory relief under the Consumer Protection Act (“CPA”), RCW ch. 19.86 for
alleged deceptive or unfair promotional claims about its 5-hour ENERGY® products.
The Court tried the case from August 22, 2016 to September 8, 2016. The State appeared
through counsel, Kimberlee Gunning and Daniel Davies, Assistant Attorneys General, and
Elizabeth Erwin and Trisha McArdle, Senior Counsel. Living Essentials appeared through its
attorneys, Joel Mullin, Reilley Keating, Timothy Snider, Jill Bowman, Taryn Williams, and
Samantha Sondag, from the law firm of Stoel Rives.
The Court heard testimony from Anthony Pratkanis, PhD, Troy Giezentanner, Edward R.
Blonz, PhD, Daniel To, Thomas McLellan, PhD, Chad W. Crummer, Carl Sperber, David
Kennedy, PhD, Jay Sickler, CPA, Sanford W. Bigelow, PhD, and J. Howard Beales III, PhD. The
Court additionally reviewed portions of transcripts and videos portions of the depositions of Carl
Sperber, Joseph P. Hennessy, James M. Blum, PhD, Jay Sanjay Udani, MD, Michael Glade, PhD,
Marilyn Barrett, PhD, Lynn Petersmarck, Thomas Maronick, and Keith Wesnes, PhD. The Court
admitted approximately 500 exhibits.
B. ISSUES
1. Did Living Essentials violate the CPA by making deceptive and/or unfair
representations in marketing and promotional materials that the non-caffeine
ingredients in its Original, Extra Strength and Decaf 5-Hour ENERGY® provide
energy, alertness and focus (the Vitamins Claim)?
2. Did Living Essentials violate the CPA by making deceptive and/or unfair
representations in marketing and promotional materials that the effects of Original
and Extra Strength 5-Hour ENERGY® are superior to consuming the equivalent
amount of coffee and other sources of caffeine (the Superior to Coffee Claim)?

MEMORANDUM DECISION - 3

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

3. Did Living Essentials violate the CPA by making deceptive and/or unfair
representations in marketing and promotional materials that Decaf 5-Hour
ENERGY® provides energy, alertness and focus (the Decaf Claim)?
4. Did Living Essentials violate the CPA by making deceptive and/or unfair
representations in marketing and promotional materials that consumers will not
experience  a  “crash”  after  drinking  5-Hour ENERGY® (the Crash Claim)?
5. Did Living Essentials violate the CPA by making deceptive and/or unfair
representations in its  “Ask  Your  Doctor”  advertising  campaign  by  implying  that  
doctors recommended the use of 5-Hour ENERGY® (the Ask Your Doctor Claim)?
C. SUMMARY OF DECISION
1. The State failed to prove that Living Essentials violated the Consumer Protection
Act when it aired or published ads that indicated that the non-caffeine ingredients
in 5-Hour ENERGY® promote energy, alertness and focus.
2. Living Essentials violated the Consumer Protection Act when it aired or published
ads that represented that the energy, alertness and focus from 5-Hour ENERGY®
lasts longer than a cup of coffee because of the synergistic or interactive effects of
caffeine, B vitamins and nutrients in the product.
3. Living Essentials violated the Consumer Protection Act when claimed in a press
release and on its web site that Decaf 5-Hour ENERGY® will provide energy,
alertness and focus that lasts for hours.
4. The State failed to prove that Living Essentials violated the Consumer Protection
Act  when  it  aired  or  published  its  “no  crash”  ads.
5. Living Essentials violated the Consumer Protection Act when it aired the Ask
Your Doctor ads.
D. FINDINGS OF FACT
1. Procedural History
This case arose out of a 2012 multi-state consumer protection investigation of Living
Essentials’   advertising and marketing practices. On July 17, 2014, the State filed this CPA
enforcement action pursuant to its enforcement authority under RCW 19.86.020; RCW 19.86.110;
and RCW 19.86.080. (Dkt. #1).1 On July 23, 2015, the State filed a Second Amended Complaint
1

The  State’s  original  complaint  included  a  sixth  claim  for  relief,  which  the  Court  dismissed  pretrial.    (Dkt.  

#23).

MEMORANDUM DECISION - 4

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

for Injunctive and Other Relief removing the dismissed claim but pursuing the five claims outlined
above. (Ex. 662). Living Essentials answered the Second Amended Complaint on July 31, 2015,
denying any CPA violations. (Ex. 663).
2. Living  Essentials’  Dietary Supplement Products
Living Essentials is a privately-held limited liability company organized under the laws of the
State of Michigan, with its principal place of business in Farmington Hills, Michigan. Living
Essentials manufactures, markets, and sells a liquid dietary supplement, 5-Hour ENERGY®
nationwide, including in Washington. It introduced Original 5-Hour ENERGY® in 2004, and
added an Extra Strength and Decaf variety in 2007.
The 5-Hour ENERGY® products, sold in 2 ounce bottles, contain the following ingredients:
Ingredient
B-3 (Niacin)
B-6
Folic Acid
B-12
Sodium
Taurine
Glucuronolactone
Malic acid
N-Acetyl-L-tyrosine
L-Phenylalanine
Caffeine
Citicoline
Choline Bitartrate

5-Hour
ENERGY®
Original
30 mg
40 mg
400 mcg
500 mcg
18 mg
467 mg
411 mg
273 mg
271 mg
229 mg
200 mg
19 mg
--

5-Hour
ENERGY® Extra
Strength
40 mg
40 mg
400 mcg
500 mcg
18 mg
529 mg
379 mg
320 mg
260 mg
260 mg
230 mg
22 mg
--

5-Hour
ENERGY®
Decaf
-40 mg
400 mcg
500 mcg
18 mg
483 mg
346 mg
292 mg
237 mg
237 mg
6 mg
-408 mg

5-Hour ENERGY® is  marketed  as  a  “dietary  supplement.”    Under  the  Dietary  Supplement  
Health and Education Act of 1994 (“DSHEA”), a dietary supplement is a product intended to be
ingested to supplement the diet and contains one of several statutorily defined ingredients: a
vitamin, a mineral, an herb or botanical, or an amino acid. 21 U.S.C. §321(ff).
3. The Nutritional Science

MEMORANDUM DECISION - 5

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

The Court heard extensive scientific evidence regarding the ingredients in 5-Hour ENERGY®
and their effects on or function within the human body. The following is a summary of the
evidence.
a. B Vitamins in General
Living Essential print ads state:
Vitamins B6, B12, and B3 (Niacin): Play a key role in the production of amino
acids, the building blocks of protein and aid[] in the processing of carbohydrates
for energy. (Ex. 653).
The State does not dispute this description of the role B vitamins play in human bodies.
The  State’s  nutritional  expert,  Dr.  Edward  Blonz,  and  Living  Essential’s  expert, Dr. David
Kennedy, agree that B vitamins are essential to metabolism (cellular generation of physiological
energy) within the human body. B vitamins prevent the creation of destructive compounds (known
as  “free  radicals”)  in the body and contribute to the synthesis of important molecules in the body
that drive cerebral blood flow to the brain. Humans need B vitamins to turn amino acids such as
L-tyrosine into neurotransmitters used in cognitive functioning. Fatigue is a classic symptom of a
B vitamin deficiency. Drs. Blonz and Kennedy agree that there is consensus within the scientific
community  that  the  intake  of  B  vitamins  from  one’s  diet  can  reduce  tiredness  and  fatigue.
(i)

Niacin (B3)

Niacin, or vitamin B3, is an essential nutrient that plays a role in producing co-enzymes
involved in energy release. It is quickly absorbed in the stomach and duodenum. Dr. Blonz
testified credibly that healthy, well-nourished adults, in general, typically obtain the daily
recommended requirement of vitamin B3 from the foods they consume each day. Dr. Kennedy
testified credibly that a niacin deficiency can cause weakness, mood disorders, cognitive problems,
personality irritability, and, in extreme cases, psychosis.
5-Hour ENERGY® Original’s   30   milligrams   of   niacin   is   150   percent   of   the   minimum
amount humans need to consume on a daily basis for healthy physiological functioning. The 40

MEMORANDUM DECISION - 6

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

mg in the Extra Strength formula is 20 times the daily required amount. There is no niacin in the
5-Hour ENERGY® Decaf.
(ii)

Vitamin B6

Vitamin B6, like niacin, is involved in energy release and protein synthesis. The vitamin
contributes to the reduction of tiredness and fatigue. Deficiency levels of vitamin B6 are in the
range of 10.5 percent of the U.S. adult population. According to Dr. Kennedy, a deficiency of B6
can cause mood disorders, cognitive problems, personality irritability, and in extreme cases,
seizures and convulsions.
(iii)

Folic Acid (Vitamin B9)

Folic acid, also known as folate, is a B vitamin essential for the body to metabolize amino
acids and to create tissue within the body. Folate, which is found in leafy green vegetables, fruits,
dried beans, and peas (Ex. 653), is important for healthy cardiovascular function (blood flow) and
can contribute to the reduction of fatigue and tiredness. If ingested with food, it is absorbed by the
body in three to four hours. If ingested on an empty stomach, it can be absorbed by the body
within an hour. There is some scientific support that a single dose of this vitamin can improve
blood flow.

5-Hour ENERGY®’s   400   mg   of   folic   acid   constitutes   100   percent   of   the  

recommended daily value of B9 needed  to  maintain  one’s  health.
(iv)

Vitamin B12

Vitamin B12 is another essential nutrient that works with folic acid in a number of
biosynthetic processes. This vitamin, which is found in meat or animal products, such as eggs,
contributes to normal energy metabolism and to the reduction of tiredness and fatigue. 5-Hour
ENERGY® has 83 times the daily amount of B12 needed in healthy adults.
At trial, Dr. Kennedy agreed with Dr. McLellan that there is no experimental evidence
showing that the addition of B vitamins to a caffeinated energy drink will cause greater
improvement in physical and cognitive performance than can be attributed to the effects of caffeine
alone.

MEMORANDUM DECISION - 7

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

b. Amino Acids
(i)

Taurine

Taurine is a micronutrient involved in several cellular and physiological functions.
Although humans require several hundred milligrams per day of the micronutrient, it is created by
the body and people get the rest of the taurine they need from their diet. Taurine can effect
endothelial  function  (blood  flow)  and  can  have  an  effect  on  one’s  cognitive  function  and  mood.    
The experts at trial agreed that there is inconsistent or limited quality experimental evidence
indicating that the addition of taurine to a caffeinated energy drink will cause greater improvement
in physical and cognitive performance than can be attributed to the effects of caffeine alone.
(ii)

Glucuronolactone

Glucuronolactone is a naturally occurring byproduct of metabolism of glucose in the liver.
The experts at trial agreed that there is no experimental evidence showing that the addition of
glucuronolactone to an energy drink will cause greater improvement in physical and cognitive
performance than can be attributed to the effects of caffeine alone.
(iii)

Malic acid

Ex. 653,  one  of  Living  Essentials’  print  ads, described  malic  acid  as  follows:  “the  body  
synthesizes Malic Acid during the process of converting carbohydrates to energy. The main food
source  of  Malic  Acid  is   fruits.”     There was no other evidence presented by either party at trial
regarding this ingredient.
(iv)

N-Acetyl-L-tyrosine and L-Phenylalanine

L-Phenylalanine is an essential nutrient derived from a  person’s diet. It generates the nonessential nutrient L-tyrosine that in turn is converted into neurotransmitters in the brain. Ltryrosine supplementation can contribute to the creation of neurotransmitters depleted by stress.
There have been some studies that indicate that low doses of L-tryosine can improve cognitive
functioning. According  to  Living  Essentials’  print  ads,  “tyrosine”  is  an  amino  acid  that  transmits  
nerve impulses to the brain and is found in meat, dairy, fish, and grains. Ex. 653.

MEMORANDUM DECISION - 8

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

c. Caffeine
Caffeine is a chemical compound, found in coffee and tea plants. It acts as a stimulant to
the central nervous system. When it is absorbed by the body, it binds to adenosine receptors.
These receptors are situated throughout the body in both the tissue and central nervous system in
the  brain.    As  a  person  requires  energy,  that  person’s  body  will  produce  adenosine.    In  the  brain,  
adenosine inhibits the release of neurotransmitters, such as dopamine, adrenaline, serotonin and
glutamate. Caffeine antagonizes the effect of adenosine, meaning it causes an increase in the
release of neurotransmitters.
Caffeine has been demonstrated to impact cognition and physical performance in humans.
The testifying experts agreed, however, that there is little evidence that caffeine improves episodic
or long-term memory. Caffeine has a half-life of 3 to 10 hours, meaning the effects of caffeine
last for several hours.
d. Citicholine and Choline Bitartrate
Choline is an essential nutrient that works with vitamin B12 and folate to contribute to the
synthesis of the neurotransmitter, acetylcholine. Citicholine, the nutrient in Original and Extra
Strength 5-Hour ENERGY®, is a chemical compound of choline and cytidine. According to
Living Essential ads, citicholine is “a water-soluble compound essential for the synthesis of
phosphatidyl choline, a constituent of brain tissue. Citicholine plays a role in neurotransmission
and  can  help  support  brain  tissue.”    (Ex.  653).    Citicholine has been shown to improve memory in
elderly participants with cognitive decline.
Choline bitartrate is a chemical compound of tartaric acid and choline. Large doses of choline
bitartrate (2 grams) have been shown to improve performance on visuomotor tasks but slow
reaction times. Because a fraction of choline bitartrate is choline, Dr. Blonz estimated that Decaf
5-Hour ENERGY® contains 167 mg of choline.
The Food and Nutrition Board of the Institute of Medicine recommends that male adults
consume 550 mg and female adults consume 425 mg of choline per day.

MEMORANDUM DECISION - 9

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

4. Living  Essentials’  Ad  Claims
In 2004, Living Essentials first began to manufacture and sell the 2 ounce non-carbonated
5-Hour ENERGY® “shot.” The competition at the time included Red Bull, Monster, AMP, Full
Throttle, and Rock Star, and they were all sweet, carbonated energy drinks that were marketed
towards teens. Living Essentials decided to market its product to working adults, rather than teens,
and to focus on the health aspects of the product.
Living Essentials began running advertisements in 2005 and television ads in 2006. It has
continued to air ads on television and cable channels across the country, including in the State of
Washington to the present. Initially, the company sought to educate consumers about the benefits
of its product over the competition: the small 2 ounce bottle made 5-Hour ENERGY® much more
convenient than large soda-can sized drinks, and the product contained no sugar and only 4
calories.    The  company’s  initial  ads  focused  on  these  educational  themes.
a. The Vitamins Claims
Living Essentials has aired and published several ads that make claims regarding the role the
non-caffeine ingredients play in 5-Hour ENERGY®. Living Essentials has never denied that its
product contains caffeine but it has expressly stated that 5-Hour   ENERGY®’s   non-caffeine
ingredients are the  product’s  “key”  ingredients in the creation of energy, alertness, and focus. The
company has chosen to promote 5-Hour ENERGY®’s B vitamins and nutrients as the reason the
product is so effective.
Carl  Sperber,  the  company’s  director  of  advertising,  developed  the  tag  lines  “B  Vitamins  for  
Energy; Amino Acids Focus & Better Mood,”  that  appeared  in  early  Living  Essentials’  television  ads  
(Ex. 2005) for this purpose:

MEMORANDUM DECISION - 10

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

See also Ex.  2129  (Living  Essentials’  print  ad  claimed  that  5-Hour  ENERGY®  “contains  a  powerful  
blend of B-vitamins formulated for  energy  and  alertness.”) In the print ad (Ex. 653),  entitled  “The  
Ten Reasons to Trust 5Hour Energy,” Living Essentials provided a detailed description of its  “key  
ingredients”  and  described  why  they  were  beneficial:

MEMORANDUM DECISION - 11

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

In Ex. 382, the Lots of Reasons ad, the narrator describes 5-Hour   ENERGY®’s   “key  
ingredients”   or   the   “beneficial   ingredients”   as   those   that   “are   found   in   every   day   food   like
avocados,  broccoli  and  bananas,  or  already  in  you.”    The  animation  depicts  an  avocado,  a  floret  of  
broccoli and a banana emerging from the 5-Hour ENERGY® bottle. (Similar statements about
the  product’s  key  ingredients  are  made  in  Ex.  648,  the  Diner  ad, and in the print ad, Ten Reasons
to Trust 5 Hour Energy, Ex. 653). Ex. 630 and 633, the Coffee and Vitamins ads from March
2013, use the same animation and script as Ex. 382, but when the avocado emerges from the bottle,
the  words  “B9”  and  “B6”  appear:

When   the   broccoli   emerges,   the   word   “niacin”   appears;;   when   the   banana   emerges,   the   word  
“tyrosine”  appears:

MEMORANDUM DECISION - 12

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

The  end  tag  line  is  “It’s  like  coffee  with  vitamins  and  nutrients. Put  them  together  and  it’s  a  great  
combination.”
Living   Essentials’   ads   expressly represent that the vitamins and nutrients in 5-Hour
ENERGY® play a role in providing energy, alertness and focus.
b. The Superior to Coffee Claims
Living Essentials’   ads also expressly claim that the key vitamins and nutrients work
synergistically with caffeine to make the biochemical or physiological effects last longer than caffeine
alone. The claims are well summarized in a 2012 press release from Living Essentials (Ex. 113):

Ex.  635,  the  “Is  It  Safe?”  ad  from  April  2013,  shows  a  cup  of  coffee  and  a  bottle  of  vitamins.    
The  narrator  says  “It’s  simple.    Caffeine  with  vitamins  and  nutrients.    It’s  the  combination that makes
it  so  great.”    The  print  ad,  Ex.  640,  carries  on  with  this  theme:  “It  delivers  a  powerful  blend  of  B-

MEMORANDUM DECISION - 13

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

vitamins (B6, B12, Niacin and Folic Acid), amino acids and caffeine comparable to a cup of the
leading premium coffee. These and other ingredients work in concert to provide a feeling of alertness
and energy that lasts for hours.*”2 In the Construction Cowboy ad from May 2012 (Ex. 384), Living
Essentials claimed that 5-Hour ENERGY® is  “packed  with  B  vitamins  and  nutrients”  to  make  it  last  
longer  than  3  or  4  cups  of  coffee.      The  “How  Much  Coffee”  radio  ad,  Ex.  723,  and  the  “Cup  after
Cup  radio”  ad,  Ex.  724,  made the same claims.
The State argues that Living Essentials downplayed or minimized the effects of caffeine in 5Hour ENERGY®. This Court does not so find. Living Essentials never misled consumers into
believing that the product contained no caffeine. In fact, its web site (Ex. 2116) promoted the benefits
of caffeine:

But   Living   Essentials’   ads did make objective claims that the duration of the recognized
physiological benefits of caffeine would be extended because of the non-caffeine ingredients in 52
This  print  ad  contains  a  disclaimer  at  the  bottom  in  small  print:  “Does  not  provide  caloric  energy.    Not  
proven to improve physical performance,  dexterity,  or  endurance.    *Individual  results  may  vary.”

MEMORANDUM DECISION - 14

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

Hour ENERGY®. Living Essentials conveyed that its formula of B-Vitamins and amino acids, in
combination with caffeine, was superior to coffee because the increase in alertness, fatigue reduction,
and improved mental functioning lasts longer than caffeine alone.
c. The Decaf Claims
Living Essentials began to sell a decaffeinated version of 5-Hour ENERGY® in 2008 to
appeal to tired, but caffeine-sensitive people. The decaf formula has no niacin and 6 mg of
caffeine. The only other difference is the addition of choline bitartrate in lieu of citicoline,
although it is not clear why this particular change was made.
Living Essentials has never advertised Decaf 5-hour ENERGY® on television or on the
radio. The extent of the marketing materials presented at trial were a press release when the
product launched (Ex. 722), a press kit developed by an ad agency for Living Essentials (Ex. 105),
screen shots of  Living  Essentials’  website (Ex. 661, 1283, 2118), and the packaging on the Decaf
5-Hour ENERGY® bottle (Ex. 101). In the press release, Sperber stated that the decaf product
provides “a  sustained  energy  boost”  for  people sensitive to caffeine. Living Essentials claimed on
its web site that the Decaf 5-Hour ENERGY® “gently” works to provide alertness, which it
attributes to the presence of choline in the product:

MEMORANDUM DECISION - 15

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

The claims in the press release and on the web site are not just claims of subjective
“feelings.”      By   linking   the   physiological   benefits   of   choline   with   the   Decaf   product,   Living  
Essentials is implying an objective benefit from drinking Decaf 5-Hour ENERGY®: alertness and
sustained energy.
Decaf 5-hour ENERGY® has not been a big seller for Living Essentials, accounting for
less than 1% of company sales.
d. The Crash Claims
Sperber  testified  that  he  first  heard  the  word  “crash”  linked  to  the  consumption  of  sugared,  
caffeinated energy drinks in a movie starring John Carrey, who in one scene drank multiple cans
of an energy drink and in the next scene was seen crashed out on the floor, asleep. Sperber
understood that consumers complained that when the sugar and caffeine in energy drinks wore off,
they would experience a sudden drop in energy and feel even more tired than before they drank
the product. To differentiate 5-Hour ENERGY® from competing energy drinks, he developed an
ad campaign revolving around the crash theme:

In the earliest ads, Living Essentials  attributed  the  “crash”  effect  to  the  combination  of  sugar  and  
caffeine:

MEMORANDUM DECISION - 16

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

Because 5-Hour ENERGY® contains no sugar, Living Essentials believed consumers
would  not  experience  a  “crash”  relating  to  a  drop  in  glucose  levels  after  consuming  the  5-hour
ENERGY® products. Living  Essentials  began  to  print  the  “No  Crash  Later”  tag  line  on  the  bottle  
itself.
In   2007,   the   National   Advertising   Division   (“NAD”)   of   the   Better   Business   Bureau  
reviewed  Living  Essentials’  promotional  claims  regarding  5-hour ENERGY®, including the “no
crash   later”   claim.      In response to the NAD investigation, Living Essentials indicated that by
“crash,”   it   meant   “no   sugar   crash”   because   5-Hour ENERGY® has no sugar.

The NAD

recommended  that  Living  Essentials  modify  the  “no  crash”  representation  to  make  it  clear  that  the  
ads meant that 5-Hour ENERGY® would  not  produce  a  “sugar  crash.” Living Essentials modified
its advertisements  to  qualify  the  “no  crash”  language  by  including  an  asterisk  directing  consumers  
to a small print disclaimer  saying  “No  crash  means  no  sugar  crash.”  (Ex.  382,  383,  384,  638,  648,  
651, 2129).
Several of  Living  Essentials’  ads  continue to claim that 5-Hour ENERGY® will not cause
a   “crash.”      See Ex.   629   (Parachute   Guy   says   “hours   of   energy   now,   no   crash   later), Ex. 638
(Parachute Guy 2, same tag line), Ex. 651 (Parachute Guy, same tag line), and Ex. 2005 (Why
Crash ad).

MEMORANDUM DECISION - 17

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

e. The Ask Your Doctor Claims
Living  Essentials  created  its  “Ask  Your  Doctor”  (“AYD”) ad campaign in July 2012. The
AYD advertisements (Ex. 649,650) aired for approximately 10 weeks from July 17, 2012 through
October  1,  2012.    Mr.  Sperber’s  inspiration  for  the  AYD  advertisement   came  from  the  Trident  
sugar-free  gum  campaign,  which  said  that  “[f]our  out  of  five  dentists  surveyed  would  choose  a  
sugar-free  gum  for  their  patients  who  [chew]  gum”  and  then  told  consumers  to  “[a]sk  your  dentist  
about  Trident.”    Sperber  wanted  to  replicate  this  ad  and  sought  to  find  a  way  to  do  so.
To substantiate a claim that doctors would recommend 5-Hour ENERGY for their patients,
the company undertook two surveys—an online survey and a paper survey—of primary care
physicians. Living Essentials, through counsel, retained Thomas Maronick, Ph.D., a professor of
marketing at Towson University in Maryland and the former Director of Impact Evaluation in the
Bureau of Consumer Protection at the FTC to create the online survey. Dr. Maronick retained a
marketing research and analytical consulting firm (Decision Analyst) to administer the survey to
a panel of primary care physicians on its Physician Advisory Council. Dr. Maronick decided on a
target of 500 completed questionnaires, which would be sufficiently large to achieve the desired
margin of error. A total of 503 physicians completed the survey.
The survey did not ask doctors for their general opinions about energy drinks or whether
they would recommend any energy supplement product for their patients. Instead, the questions
asked if the doctor would recommend a low calorie, or a low sodium energy drink for their patients
who  already  consumed  such  products.    Not  surprisingly,  the  majority  of  doctors  said  “Yes.”    The  
results of the online survey indicated that 73.6% of the physicians said they would recommend a
low-calorie energy product to their healthy patients who use energy drinks.
The doctors were also shown a 5-Hour ENERGY® label and a brief description of the
product. They were then asked if they would recommend 5-Hour ENERGY® to their healthy
patients who use energy drinks. The survey results indicated that 47.7% of the physicians would
specifically recommend 5-hour ENERGY® to their healthy patients who use energy supplements.

MEMORANDUM DECISION - 18

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

About 25% of the survey participants responded that they would not recommend 5-hour
ENERGY®.
Living Essentials subsequently hired Joe Hennessy, Sales Director for MicroDose, to assist
with a paper survey3 based on questions used in the online survey that Dr. Maronick had designed.
Under  Hennessy’s  direction, sales staff would make in-person  visits  to  doctors’  offices  across  the  
United States to promote 5-Hour ENERGY®. His sales team left samples of the product and
brochures describing 5-Hour  ENERGY®’s  ingredients  in  these  doctors’  offices.    Living  Essential,
again through their attorneys at Oakland Law Group, asked Hennessy to have his sales
representatives deliver paper copies of the Maronick survey (Ex. 627) to doctors they normally
would visit and to ask the doctors to complete the survey. According to Hennessey, he distributed
100,000 copies of the survey to his territorial managers who in turn transmitted copies to the sales
representatives. Hennessy was instructed to target 2,500 responses. Dr. Maronick was not
involved in the paper survey process and had concerns about whether such a method would suffer
from biased responses.
Hennessy received 2,659 paper surveys before the cutoff date. Approximately 90% of the
physicians responding to the paper survey indicated they would recommend a low-calorie energy
supplement to patients who use energy supplements, and 74% would specifically recommend 5hour ENERGY®.
After receiving the results of the online survey and the paper survey, Living Essentials
created three versions of the AYD television commercial, two 30-second spots and one 10-second
version. (Exs. 649, 640, and 2098). Sperber was personally involved in the development of the
script for these ads. He testified that the intent was to convey to consumers that doctors viewed 5Hour ENERGY® as a safe and effective nutritional supplement as a way of allaying possible

3
Living  Essentials  used  the  phrase  “in-person  survey”  to  describe  the  second  survey.    The  Court  does  not  
find this to be an accurate description of how Living Essentials conducted the survey. No doctors were questioned in
a face-to-face meeting.

MEMORANDUM DECISION - 19

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

health and safety concerns. He sought to convince consumers that, by and large, doctors
recommended a product like 5-Hour ENERGY®.
The script for the 30-second  ad  (Ex.  2122)  said  “We  asked over 3,000 doctors to review 5Hour ENERGY®. And what they said was amazing. Over 73 percent who reviewed 5-hour
ENERGY said they would recommend a low calorie energy supplement to their healthy patients
who use energy supplements. Seventy-three percent. 5-hour  ENERGY®  has  four  calories  and  it’s  
used over nine million times a week. Is 5-hour ENERGY® right for you? Ask your doctor. We
already  asked  3,000.”    Placed  next  to  the  ad  spokeswoman  was  a  large  stack  of  papers,  which  she
flipped through or gestured to while speaking:

The fine print from this screen shot said “Of  all  primary  care  physicians  surveyed,  47%  would  
specifically recommend 5-Hour ENERGY® for their healthy patients who use energy
supplements.”
The broadcasting networks ABC and NBC refused to run the AYD ads without some
changes to the script. Consumers also complained to Living Essentials about the Ask Your Doctor
ads and these complaints were a contributing factor for the company pulling the ads before the end
of the campaign.

MEMORANDUM DECISION - 20

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

5. Living Essentials’ Claim Substantiation
Before this litigation began, Living Essentials had commissioned three literature reviews
and two scientific studies concerning the efficacy of 5-hour ENERGY®.
(i)

Glade Reports

In 2007, Living Essentials, through Jonathan Emord, an attorney with Emord & Associates,
commissioned Dr. Michael Glade, a Fellow in the American College of Nutrition, to conduct a
review of the scientific literature to assess certain Living Essentials promotional claims, including
“B-Vitamins  for  Energy,”  “Amino  Acids  for  Focus  and  Better  Mood,”  and  “No  Crash  Later.”    (Ex.  
2071). Dr. Glade testified that he found competent and reliable scientific support for these claims
and prepared a written report which he provided to Emord in July 2007. Dr. Glade testified that
when he reviewed the scientific literature, he examined the studies to verify that they were
conducted in a scientifically sound manner before including them in his literature review.
As to the claim that 5-Hour ENERGY® provides energy that lasts for hours, he concluded
that the literature supported this claim because the concurrent consumption of taurine, caffeine,
and glucuronolactone increases the conversion of stored triglycerides into energy. As to the claim
that B-vitamins in 5-Hour ENERGY® provide energy, he concluded that the literature supported
this claim because the daily consumption of niacin, vitamin B6, vitamin B12, and folate supports
the use of fatty acids for metabolic energy production. As to the claim that the amino acids in 5Hour ENERGY® provide focus, Dr. Glade concluded that the literature supported this claim
because the consumption of N-acetyl-L-tyrosine and L-phenylalanine enhances cognitive
functioning. Regarding  the  “no  crash”  claim,  Dr.  Glade  repeated his summary of the literature on
the effects of caffeine but really does nothing more. .  Dr.  Glade’s  report  does  not  discuss  what  is  
meant   by   “crash,”   or   the   impact   of   glucose   or   caffeine   withdrawal   on   any   sudden   decrease   in  
energy levels. It is unclear  how  the  studies  he  cites  relate  in  any  way  to  the  “no  crash”  claim.
At some point, Living Essentials received a copy of the 2007 report because it produced
the report to the Attorney General as substantiation in this lawsuit.

MEMORANDUM DECISION - 21

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

In 2010, Living Essentials commissioned Dr. Glade to conduct a similar literature review
to assess whether there was competent and reliable scientific evidence to support claims that
Living   Essentials’   Decaf 5-hour ENERGY® provides energy and alertness that lasts for hours
without any crash effect. (Ex. 2079). He was also asked to substantiate the claim that the drink
contained  a  “proven  blend  of  B-vitamins, amino acids and essential nutrients to keep you going
strong.”    Id. Dr. Glade reviewed some 217 scientific studies and concluded that there was science
to back each of these claims. With regard to the contention that the energy provided by the drink
would   “last   for   hours,”   Dr.   Glade   cited   studies   relating   to   taurine,   which   he   concluded  
demonstrated that daily dietary supplementation of taurine in 3000 mg or more increased
metabolizable energy that could last for at least four hours (Decaf 5-Hour ENERGY® contains
only 483 mg of taurine). He also cited studies for the proposition that the daily intake of certain
B vitamins supported the production of energy within 2 hours of consumption and for 12 to 24
hours   after   consumption.      As   to   the   “no   crash   later”   claim,   Dr.   Glade   concluded   that   dietary  
supplements   that   do   not   contain   sugar   or   caffeine   cannot   produce   a   “sugar   crash”   or   caffeine
withdrawal effect.
Again,  there  is  no  evidence  that  any  employee  of  Living  Essentials  reviewed  Glade’s  2010  
literature review, but Living Essentials provided it to the Attorney General as substantiation for its
decaf claims.
The Court has serious questions  about  the  scientific  reliability  of  Dr.  Glade’s  two  reports.    
First, his analysis was based on a non-quantitative list of ingredients in 5-Hour ENERGY®. He
was not given the actual formula, so Dr. Glade was unable to look at the actual amounts of vitamins
and amino acids contained in the product to compare to the levels tested in the studies he reviewed.
Second,  Dr.  Glade’s  2007 literature review did not evaluate how 5-Hour ENERGY®, or any of its
ingredients in the amounts found in 5-Hour ENERGY® would affect healthy, well-nourished
individuals. Dr. Glade admitted in his deposition that it was possible that the caffeine, by itself in

MEMORANDUM DECISION - 22

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

5-Hour ENERGY®, could be causing the energy, alertness, and focus that consumers felt after
drinking the energy supplement.
Third, Dr. Glade relied on studies that evaluated the consumption of certain vitamins and
nutrients in sick populations. The scientists who testified at trial disagreed as to whether these
factors  undercut  Dr.  Glade’s  conclusions. There was no analysis in either report as to why reliance
on the studies he cited was appropriate.
Finally, Dr. Glade did not communicate his conclusions to anyone directly working for
Living Essentials. Carl Sperber, the director of advertising, had never  seen  either  of  Dr.  Glade’s  
reports. Sperber testified that starting in 2007, the company began relying on the Oakland Law
Group to review all of the ads he created to ensure that they were backed by adequate
substantiation. No one from the Oakland Law Group testified regarding what role, if any, the 2007
Glade Report played in substantiating specific ad representations.
(ii)

Blum Study

Living Essentials commissioned James Blum, Ph.D., an epidemiologist, to conduct a
clinical trial to assess the effects of the 2004 formulation of 5-hour ENERGY® as compared to
two other energy drinks then on the market, but not to a placebo. Dr.  Blum  tested  subjects’  peak  
energy,  the  duration  of  energy,  and  any  “crash.”    He  concluded  that  consumers’  self-reported peak
energy after drinking 5-Hour ENERGY® occurred at 4.92 hours. The peak energy duration for
the two competing products occurred at 4.39 and 4.34 hours, which Dr. Blum felt were similar
results.    Dr.  Blum  also  asked  test  subjects  whether  they  experienced  a  “crash”  after  drinking  the  
three energy drinks. Dr. Blum testified  that  he  considered  a  “crash”  to  be  the  experience  of  hitting  
a  “floor  or  wall”  where  the  test  subjects  self-reported feeling physiologically stressed. Based on
this   definition   of   “crash,”   he   concluded that 24 percent of the people consuming 5-Hour
ENERGY®  reported  experiencing  a  “moderately  severe”  crash. Eighty percent of the Red Bull
and 75 percent of the Monster group reported experiencing a similar crash. Dr. Blum did not test

MEMORANDUM DECISION - 23

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

the non-caffeine ingredients of 5-Hour ENERGY® and reached no conclusions as to the efficacy
of these ingredients in the absence of caffeine.
Dr. Blum provided his final report directly to Living Essentials in May 2007. (Ex. 2153)
Living Essentials retained a copy of  Dr.  Blum’s  report  in  its  files,  and  that  report  constituted  part  
of   Living   Essentials’   substantiation   for   its   promotional   claims   about   the   5-hour ENERGY®
products.
(iii)

NERAC Report

Also in 2007, Living Essentials, through Jonathan Emord of Emord & Associates,
commissioned NERAC, Inc., a global research and advisory firm, to conduct a review of the
scientific  literature  to  assess  certain  promotional  claims  including  “No  Crash  Later,”  “B-Vitamins
for  Energy,”  “Amino  Acids  for  Focus  and  Better  Mood,”  and  “Reduction  in  Fatigue.”    (Ex.  2070)
NERAC’s   team of biochemists, food scientists, and nutritionists sought to find at least one
ingredient in 5-Hour  ENERGY®  that  supported  each  of  the  company’s  claims.    They  looked  at  
the research into B vitamins, the amino acids, and caffeine.
NERAC’s  conclusions differed from those of Dr. Glade. For example, NERAC concluded
that there was no support in the literature for claiming that glucuronolactone improved memory,
supplied energy, or affected fatigue. Although NERAC identified one study that indicated that a
high dose of glucuronolactone delayed the onset of fatigue, the dose was 34 times the amount of
glucuronolactone in 5-Hour ENERGY®. Because NERAC found no study varying the dosage
level of this ingredient, it concluded that one could not say that the glucuronolactone in 5-Hour
ENERGY® had a measurable effect on energy or fatigue. With  regard  to  the  “B  Vitamins  for  
Energy”   claim,   NERAC concluded that 5-Hour ENERGY® included B vitamins at doses high
enough  to  “promote  mental  health  and  support  good  physical  condition  and  provide  energy.”    With  
regard   to   the   “Amino   Acids   for   Focus”   claim,   NERAC concluded that 5-Hour ENERGY®
included certain amino acids, namely phenylalanine and tyrosine, had been shown to improve
mood and attention, and thus supported the claim.

MEMORANDUM DECISION - 24

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

NERAC’s  discussion  of  the  “no  crash  later”  claim  was  quite  abbreviated.    It  stated  that  the  
“crash”   phenomenon   was   related   to   sudden   shifts   in   blood   sugar   levels   and   because   5-Hour
ENERGY® contains no sugar, it could not contribute to a sudden change in blood sugar levels.
NERAC found no published human studies showing a relationship between any of 5-Hour
ENERGY®’s  ingredients  and  a  “crash”  as  NERAC defined it.
Living Essentials provided a copy of the NERAC report as part of its substantiation for its
promotional claims about the 5-hour ENERGY® products.
(iv)

Medicus Clinical Study

In early 2008, Emord & Associates contacted Dr. Jay Udani, the CEO and Medical Director
of Medicus Research LLC, to conduct a clinical trial of 5-Hour ENERGY®. The purpose of the
study was to establish the scientific validity of claims the company was either making at the time
or intended to make about its product in the future. Medicus retained Dr. Keith Wesnes and his
firm, Cognitive Drug Research (“CDR”), to assist with the study.

CDR had developed a

computerized cognitive assessment tool to assist researchers in evaluating the effect of certain
commercial products on human test subjects. (Ex. 1452). CDR’s  core  battery  of  automated tests
included immediate word recall, reaction time to questions, working memory, delayed word recall,
word recognition, picture recognition, and self-reported alertness, calmness, and contentment.
Ultimately, Drs. Udani and Wesnes proposed to undertake a 4-arm crossover, randomized,
double-blind, placebo-controlled study to assess the efficacy of a single dose of 5-Hour
ENERGY® compared to a placebo, and the efficacy of one active comparator (Monster Energy
Drink) to a placebo, measured by alertness and cognitive function over a 6-hour period. (Ex. 1455,
1448). The trial involved five separate visits to the test site. The primary objective was to measure
the power of attention, continuity of attention (focus), quality of short-term working memory,
qualify of episodic (long-term) memory, speed of memory, and self-related alertness. The
secondary objective was to assess the effects of 5-Hour ENERGY® on blood glucose levels. The
tertiary objective was to assess changes in self-related contentment, calmness, mood, and fatigue.

MEMORANDUM DECISION - 25

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

Ninety test subjects underwent a screening visit where they were trained on the CDR tests
hourly for 4 hours. They were provided standardized frozen foods with low glycemic content to
consume the day before each visit. They were instructed not to drink any alcohol or energy drinks
the day before each visit and to sleep only 3 to 6 hours the night before. Participants were
instructed not to consume more than 4 cups of coffee the day before each visit and not to consume
any caffeine or food on the morning of each visit. The subjects were provided the same
standardized meal of eggs, bacon and sausage on each study day, two hours after consuming the
energy drink or placebo. They were not provided any carbohydrates.
Dr. Udani concluded that 5-Hour ENERGY® had a statistically significant effect on
cognitive function and mental energy over a 6-hour test period as compared to the placebo. There
was no evidence of a statistically significant drop in blood sugar compared to placebo (and thus
no   “crash”),   and   there   were   no   statistically   significant   diminishment   in   mood,   contentment,  
calmness, depression, or anxiety that would represent a negative effect of using the product.
The study tested the effects of the 5-Hour ENERGY® formula as a whole. It did not study
or test the effects of any of the non-caffeine ingredients. Nor did Dr. Udani examine whether 5Hour  ENERGY®  was  “superior”  to  drinking  the  same  amount  of  caffeine  in  some  other  form,
such as in coffee. Because the clinical trial did not evaluate separate ingredients in 5-Hour
ENERGY®, Dr. Udani testified it was not possible to draw any conclusions about the benefits of
such  individual  ingredients  from  the  Medicus  Report’s  data.
The experts   disagreed   about   the   reliability   of   the   study’s   data or the validity of any
conclusions one could draw from the data, given its design. Dr. McLellan, an expert on caffeine,
credibly testified that because Dr. Udano allowed test subjects arrive in a caffeine withdrawn state,
and   the   placebo   group’s   overall   performance   was   so   far   below   baseline,   any   statistically  
significance in test scores between the 5-hour ENERGY® group and placebo group was likely
attributable  to  the  former  group’s  ingestion  of  caffeine.

MEMORANDUM DECISION - 26

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

6. Post-Claim Scientific Evidence
Living Essentials presented additional scientific evidence, developed after its ads aired, to
substantiate the claims now being challenged by the State.4
a. Moat Article (2003)
In 2003, Stuart Moat published an article   entitled   “Folate,   homocysteine,   endothelial  
function   and   cardiovascular   disease,”   in   the   Journal   of   Nutritional   Biochemistry.      (Ex.   2002).
Moat’s   article   is   a   literature   review   on   the   effect   of   folate   or   folic   acid   deficiencies   on   the  
cardiovascular system. Moat concluded that that folate can reverse endothelial dysfunction.5
According to Dr. Kennedy, Moat also found that the cardiovascular benefit of taking a single dose
of folate can be detected physiologically within two hours of ingestion, at four hours postingestion, and even after six weeks.
b. Scholey & Kennedy Study (2004)
In 2004, Andrew Scholey and David Kennedy co-authored  a  paper  entitled  “Cognitive  and  
physiological   effects   of   an   “energy   drink”:   an   evaluation   of   the   whole   drink   and   of   glucose,
caffeine  and  an  herbal  flavoring  fractions.”    (Ex.  2068). They conducted a double-blind, placebocontrolled crossover study to evaluate the effects of a non-caloric placebo drink with (a) an energy
drink containing glucose, caffeine, and guarana; (b) a drink containing only the glucose fraction
of the energy drink; (c) a drink containing only the caffeine fraction of the energy drink; and (d) a
drink  containing  only  the  flavoring  fraction  of  the  energy  drink.    Scholey  and  Kennedy  used  CDR’s  
cognitive testing system on their test subjects.
They concluded that there were improvements to cognitive functioning after the
consumption of the energy drink but that neither glucose nor caffeine in isolation provided any
4

The State argues that any scientific evidence developed after Living Essentials aired or published its ads is
legally irrelevant because the FTC guidelines required pre-claim substantiation. While this Court acknowledges that
both the FTC guidelines and federal case law indicate that pre-claim substantiation is required, the Court also
concludes that subsequent scientific studies may shed light on pre-claim studies and are thus relevant and material to
the  Court’s  CPA  analysis.
5
Endothelial function is the measure of how well the body is delivering blood on demand to the periphery,
including the brain.

MEMORANDUM DECISION - 27

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

significant improvements in cognitive functioning. They concluded that their test results strongly
suggest that the cognitive enhancing properties of energy drinks containing glucose, caffeine and
guarana6 were attributed to the combination of active ingredients, rather than solely to caffeine.
The study does not directly support the contention that 5-Hour  ENERGY®’s  ingredients  
work together to achieve results not attributable to caffeine alone because 5-Hour ENERGY® does
not contain any glucose or guarana. But Living Essentials contends and Dr. Kennedy testified that
the study is strongly supportive of the proposition that it is not the caffeine alone in 5-Hour
ENERGY® that makes it effective.
c. Haskell & Kennedy Study (2005)
Dr. Kennedy testified that in 2005, he and a colleague, Crystal Haskell, co-authored a paper
that looked at the effects of both caffeine (given in two different dose levels, 75 mg and 150 mg)
in habitual users and non-users by examining cerebral blood flow. (Ex. 2004). They concluded
that caffeine improved cognitive performance and mood in healthy, young adults regardless
whether the adults were habitual users or non-users of caffeinated products. All of the scientific
experts agreed that caffeine is well-documented to improve cognitive performance.
d. Giles Study (2012)
In 2012, Grace Giles et al. published  an  article  entitled  “Differential  cognitive  effects  of  
energy   drink   ingredients:   Caffeine,   taurine,   and   glucose,”   in   the   journal   Pharmacology,  
Biochemistry and Behavior. (Ex. 665, 2034). Giles studied the effects of caffeine, taurine, and
glucose (both alone and in combination) on cognitive performance and mood in 24-hour caffeine
abstaining habitual caffeine consumers. Subjects took cognitive tests 30 minutes and 60 minutes
post-ingestion. Giles found that caffeine enhanced executive control and working memory, and
reduced simple and choice reaction time, that taurine increased choice reaction times but reduced
reaction time in working memory tasks, and that glucose slowed choice reaction time. Glucose,
combined with caffeine, enhanced working memory.
6

Taurine, combined with glucose and

Guarana is a plant containing caffeine.

MEMORANDUM DECISION - 28

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

caffeine, enhanced orienting attention. Caffeine reduced feelings of fatigue and increased tension
and vigor. Taurine reversed the effects of caffeine on vigor and caffeine-withdrawal symptoms.
Giles’  final conclusion, however, was that caffeine, not taurine or glucose, is likely responsible for
reported changes in cognitive performance following the consumption of energy drinks,
particularly in caffeine-withdrawn habitual caffeine consumers.
e. Wesnes’s  Appetite Article (2013)
In 2013, Dr. Wesnes, along with Dr. Udani and Dr. Barrett, published an article outlining
the results of the Medicus Study in the journal, Appetite. (Ex. 664, 2107). In the article entitled
“An  evaluation  of  the  cognitive  and  mood  effects  of  an  energy  shot  over  a  6  h  period  in  volunteers.    
A randomized, double-blind, placebo controlled, cross-over   study,”   Dr.   Wesnes   described   the  
Medicus clinical trial and the results from that trial. The  article  described  the  study’s  results  this  
way:  “an  energy  shot  can  significantly  improve  important  aspects  of  cognitive  function  for  up  to  
6 h[ours] compared to placebo in partially sleep-deprived   healthy   volunteers.”      Dr.   Wesnes  
testified  that  he  thought  the  results  of  the  tests  in  the  Medicus  study  were  “most  uncaffeine-like”  
because the differences in the cognitive performance of the 5-Hour ENERGY® group and the
placebo group were significant over the entire 6-hour period.
Dr. Kennedy testified that the results of the Medicus clinical trial demonstrated that 5-Hour
ENERGY® provided improvements in attention, working memory, long-term memory, alertness,
depression, and anxiety and that these improvements endured for six hours. He also opined that,
based on other studies relating to the benefits of caffeine, these effects could not be attributable to
caffeine alone. Dr. McLellan disagreed with this interpretation of the data when he testified that
5-Hour ENERGY® did not improve any test scores; it simply showed less of a diminishment of
cognitive functioning in sleep-deprived and potentially caffeine withdrawn test subjects, than
placebo. He found the test results consistent with prior studies showing the impacts on caffeine
over time.

MEMORANDUM DECISION - 29

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

f. Kurtz Article (2013)
In 2013, Abigail Kurtz et al. published an article entitled  “Effects  of  Caffeinated  Versus  
Decaffeinated  Energy  Shots  on  Blood  Pressure  and  Heart  Rate  in  Healthy  Young  Volunteers,”  in  
the journal Pharmocotherapy. (Ex. 2044). Kurtz’s  article  described  a  study  evaluating the effects
of a single dose of caffeinated 5-Hour ENERGY® shot compared with a decaffeinated 5-Hour
ENERGY® shot, assessed by changes in blood pressure and heart rates in healthy volunteers.
Kurtz sought to determine if the non-caffeine ingredients in 5-Hour ENERGY® were affecting
blood pressure. Kurtz found that the caffeinated shot significantly increased systolic and diastolic
blood pressure over a three-hour period compared with the decaf version of the drink. She
concluded that it was unlikely that the non-caffeine ingredients were contributing to blood pressure
increases. Kurtz also reported that self-reported energy levels did not vary significantly between
the caffeinated and decaffeinated versions of 5-Hour ENERGY® over time. She concluded that
“[i]t  appears  that  the  decaffeinated  shot  provides  the  same  amount  of  increase  in  perceived  energy  
without  the  rise  in  peripheral  blood  pressure  noted  with  the  caffeinated  shot.”
g. Nagrecha Study (2013)
Natasha Nagrecha et  al.  published  an  article  entitled,  “The  Effect  of  Caffeine  and  Choline  
Combinations on Short-term  and  Auditory  Memory,”  in  2013  in  the  journal,  Clinical Pharmacol
Biopharmaceutical (Ex. 2238), in which she reported on a study to determine whether choline in
combination with several doses of caffeine could facilitate short-term visual and verbal memory
and attention in adult and middle aged human subjects with normal cognitive function. Subjects
underwent computerized testing once 40 minutes after ingestion. The test results showed that
subjects ingesting 100 mg caffeine and 2 grams of choline bitartrate and those ingesting choline
alone showed no change in performance on short-term memory or attention tests compared to
placebo. The group ingesting 50 mg of caffeine and 2 grams of choline bitartrate scored
significantly lower on tests for short-term verbal memory and attention than a placebo group. The

MEMORANDUM DECISION - 30

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

subjects ingesting 25 mg of caffeine and 2 grams of choline bitartrate scored significantly higher
on tests for short-term visual memory than a placebo group.
h. Marczinski Study (2014)
Cecile Marczinski authored   an   article   entitled   “Subjective   State,   Blood   Pressure,   and  
Behavioral  Control  Changes  Produced  by  an  ‘Energy  Shot’”  in  the Journal of Caffeine Research
in 2014. (Ex. 2056) The purpose of the Marczinski Study was to investigate the acute effects of
5-Hour ENERGY® on subjective and objective measures assessed hourly for 6 hours following
consumption. Marczinski concluded that while 5-Hour ENERGY® improved subjective feelings
of vigor and reduced fatigue, the subjects’  objective  performance  on  a  computerized  cognitive  test  
did not improve, and in fact worsened over time.
i. Shah Study (2015)
Dr. Blonz and Dr. Kennedy both referenced a study published by Sachin Shah entitled
“Energy   Implications   of   Consuming   Caffeinated   Versus   Decaffeinated   Energy   Drinks.”    
According   to   Dr.   Kennedy,   Shah’s   article   was   published   in   the   Journal   of   Pharmacy   Practice,  
although  the  article  itself  is  not  in  evidence  (Ex.  2254,  p.  65).    Dr.  Kennedy  summarized  Shah’s  
study: Shah conducted two studies to measure subjective energy levels in participants who
consumed a caffeinated version of 5–Hour ENERGY® and a decaffeinated version of 5-Hour
ENERGY®.      Dr.   Kennedy   testified   that   Shah’s   test   results   indicated   that   both   caffeinated   and  
decaffeinated 5-Hour  ENERGY®  “significantly  boosted  energy  levels 1 hour after consumption,
but caffeinated EDs have a significantly greater boost and it is sustained at least 3 hours after
consumption.”
j. Buckenmeyer Study (2015)
In  2015,  Phillip  Buckenmeyer  published  an  article  entitled  “Cognitive  Influence  of  a  5-h
ENERGY®  shot:  Are  effects  perceived  or  real?”    (Ex.  1398). Buckenmeyer studied the effects of
consumption of a 5-Hour ENERGY® shot on various cognitive functions across five hours on 24
college-aged students using a double-blind, cross-over, placebo-based design. Buckenmeyer

MEMORANDUM DECISION - 31

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

concluded that while 90% of the participants subjectively thought that 5-Hour ENERGY®
effective one-hour post-ingestion, he found no evidence that it enhanced recognition, reaction time,
short-term and working memory, or attention capacity. Buckenmeyer   did   not   use   CDR’s   test  
battery but instead used a web-delivered cognitive assessment from Lumosity.com.
k. Molnar Study (2015)
Janos Molnar authored  an  article  entitled  “Evaluation  of  the  Effects  of  Different  Energy  
Drinks  and  Coffee  on  Endothelial  Function.”    Molnar  looked at four different treatments: 5-Hour
ENERGY® (230 mg of caffeine), Red Bull (80 mg caffeine), a drink called NOS (120 mg
caffeine), and coffee (240 mg caffeine),  and  compared  test  subjects’  endothelial  function over a 4
hour period. (Ex. 2137). The endothelium is the lining of the blood vessels. The endothelium
responds to signals from the brain to dilate or contract blood vessels. The body needs to ensure
that blood is delivered to working muscles. A properly functioning vasculature, reflected in
endothelial function, provides this service to the body. Molnar found a significant improvement
in endothelial function (or blood flow) 1 ½ and 4 hours after the subjects consumed 5-Hour
ENERGY® and Red Bull. Neither NOS nor the coffee, containing the same amount of caffeine
as 5-Hour ENERGY®, changed endothelial function significantly.
The Molnar Study did not test energy, alertness or focus. It looked at endothelial function
as a proxy for coronary function, or how the heart works. Dr. Blonz did not find the Molnar Study
to be relevant for this reason. Dr. Kennedy opined that the Molnar Study supported the proposition
that the physiological effects of 5-Hour ENERGY® cannot be attributed to caffeine alone.
Because endothelial functioning relates to how well the body delivers blood on demand to the
brain, Dr. Kennedy testified that it is reasonable to conclude from  Molnar’s  results  that 5-Hour
ENERGY® would have a greater impact on cognitive functioning than would caffeine alone.
l. Jacobson Study (2015)
In 2015, B.H. Jacobson published a study in the journal Perceptual & Motor Skills, entitled
“Effect  of  Energy  Drinks  on  Selected  Fine Motor  Tasks.”  (Ex.  2060). Jacobson assessed the effect

MEMORANDUM DECISION - 32

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

of energy shots on certain fine motor skills of college-aged males. Jacobson noted that the
stimulant energy blends present in most of the commercially available energy shots and energy
drinks  include  caffeine,  taurine,  guarana,  ginseng,  glucose,  and  B  vitamins.    He  notes  that  “very  
little research on the combined or synergistic effects of these ingredients”  has  been  done.    After  
summarizing the conflicting results of studies examining the effect of caffeine combined with
taurine  or  glucose,  he  stated  that  the  purpose  of  his  study  was  to  “compare  hand  steadiness,  choice  
reaction time, pursuit rotor tracing, and simple reaction time following ingestion of a commercially
available  energy  shot  or  a  placebo.”    The  energy  shot  involved  in  the  test  was  5-Hour ENERGY®
Extra Strength.
Jacobson’s  study  showed  that  the  ingredients  in  5-Hour ENERGY® did affect the subjects’  
physical performance. The energy shot did not improve hand steadiness over the placebo but did
improve reaction times, which the author surmised may be the result of the caffeine in 5-Hour
ENERGY®.
m. Bloomer Study (2015)
Richard Bloomer published  the  article,  “Comparison  of  5-Hour ENERGY and Caffeine on
Cognitive  Performance  and  Subjective  Feelings  in  Young  Men  and  Women,”  in  the  Journal  of  
Caffeine Research in 2015. (Ex. 1397). Bloomer sought to compare the effects of 5-Hour
ENERGY® to caffeine only and to a placebo on subjective feelings of energy and mood, objective
measures of cognitive performance, heart rate, and blood pressure in men and women. Bloomer’s  
study concluded that neither caffeine nor 5-Hour ENERGY® resulted in an improvement in
subjective feelings of energy or mood or in objective cognitive performance. The results clearly
diverge from those of the Medicus Study. Dr. Blonz attributed the difference to the design of the
study: the Bloomer participants were allowed to eat breakfast on the day of testing, suggesting that
the lack of food impacted the Medicus test results. Dr. Kennedy felt that the Bloomer study must
have been flawed because the lack of improved functioning after ingesting the caffeine-only drink

MEMORANDUM DECISION - 33

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

was inconsistent with most of the recognized science relating to caffeine but he was unable to
identify what any such flaws were.
n. Pomportes Study (2015)
Laura Pomportes et al. wrote  the  article,  “Heart  Rate  Variability  and  Cognitive  Function  
Following a Multi-Vitamin and Mineral Supplementation with Added Guarana (Paullinia
cupana), in the journal, Nutrients (Ex. 2062).

The Pomportes Study assessed cognitive

performance and heart rate variability following the ingestion of either a multivitamin and mineral
combination supplemented with 300 mg of guarana, compared to a caffeine supplement or a
placebo. Test participants were asked to perform cognitive tasks 15 minutes after ingestion and
then every 15 minutes over a 3-hour period. The results indicated that those ingesting the
multivitamin/mineral/guarana product performed better on cognitive tests than the caffeine only
or placebo. Dr. Kennedy testified that the study is significant in that it demonstrated that a mixture
of multivitamins, minerals and guarana worked better in improving cognitive functioning than
caffeine.
o. Paulus Study (2015)
In May 2015, an undergraduate student in Ohio named Ryan Paulus published an article
documenting a study he and colleagues performed to test cognitive functioning and self-related
mood of college students after consuming 5-Hour ENERGY®, or a Starbucks DoubleShot®, or a
drink containing caffeine powder. Paulus concluded that the 5-Hour ENERGY® appeared to
perform better than the other two products. Experts for both parties agree that this study has some
fairly basic methodological problems. The study was not blind, for example, and there were
limited   controls   on   the   test   subjects’   food   consumption and activities during the tested time
periods.
p. Cheskin Study (2016)
In July 2016, Lawrence J. Cheskin, a researcher at Johns Hopkins Bloomberg School of
Public  Health,  issued  a  report  to  the  Oregon  Department  of  Justice  entitled  “Randomized,  Placebo-

MEMORANDUM DECISION - 34

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

Controlled   Crossover   Trial   of   an   Energy   Drink.”      (Ex.   2247). Cheskin stated that the most
common active ingredient in energy drinks is caffeine “but  whether  energy  drinks  boost  energy  
due to caffeine, other non-herbal (vitamins, minerals, amino-acids) and herbal ingredients that may
be  present,  or  a  combination  remains  unclear.”    He  stated  that  all  previous  studies  of  the  efficacy  
of  energy  drinks  “lacked  sufficient  power  and  were  generally  not  placebo-controlled.”    Because
he did not find sufficient evidence to determine the effect of any ingredients other than caffeine,
in boosting energy, Cheskin sought to test the efficacy of 5-Hour ENERGY® Decaf, compared to
a placebo drink.
Cheskin’s  study  involved  147  participants  who  were  given  Decaf  5-Hour ENERGY® or a
placebo drink and then underwent computerized cognitive tests at 30 minutes, 1 ½ hours and 5
hours post-ingestion. The Cheskin data indicate that there was no significant improvement in
cognitive, behavioral, or energy-level performance after consuming 5-Hour ENERGY® Decaf
compared to the placebo drink. After comparing the relative reliability of his study results as
compared to those of Paulus, Kurtz and  Giles,  he  concluded  “We  found  strong  evidence  that  5Hour ENERGY Decaf is not efficacious in enhancing energy levels or any related cognitive
behavioral  parameters  measured.”
Dr. Blonz believed that the Cheskin Study was competent and reliable; Dr. Kennedy did
not.    Dr.  Kennedy  criticized  the  design  of  Cheskin’s  study  because  38  percent  of  the  participants  
were morbidly obese, and thus might suffer from obesity-related illness; the age range of the
participants was overly large, from age 18 to 70, which could confound the cognitive test results;
and the cognitive tests were run over the weekend when it would have been difficult to control for
sleep, food intake, caffeine intake, or alcohol use.
7. The Blonz/McLellan/Kennedy Scientific Disputes
The scientists presented by the State and Living Essentials disagreed on several key issues.
The Court summarizes its understanding of these disputes below.
a. Whether caffeine is the sole active ingredient in 5-Hour ENERGY®.

MEMORANDUM DECISION - 35

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

The complaint alleges that caffeine is the sole active ingredient in 5-Hour ENERGY®. By
“active  ingredient,”  the  Court  adopts  Dr.  Blonz’s  definition:  an  ingredient  that  has a physiological
effect on the human body. Dr. Kennedy presented convincing testimony, and the studies each side
cited also support the conclusion, that the B-vitamins, and the amino acids can have a physiological
effect on the body. The Court finds from this evidence that caffeine is not the sole active ingredient
in 5-Hour ENERGY®. As previously described above, B vitamins, taurine, tyrosine and choline
are bioactive. B vitamins, in general, promote metabolism which plays a role in the generation of
physiological energy and can affect cognitive function and mood. Taurine can improve endothelial
function and reduce subjective feelings of fatigue. Tyrosine can promote the formation of
neurotransmitters.
It does not necessarily follow, however, that these bioactive ingredients in 5-Hour
ENERGY®, in the amounts found in that product, are efficacious in providing consumers with the
advertised benefits of “energy, alertness, and focus.” Dr. Kennedy agreed with Dr. McLellan that
there is no experimental evidence showing that the addition of multivitamins to a caffeinated
energy drink will cause greater improvement in physical and cognitive performance than can be
attributed to the effects of caffeine alone.
b. Whether healthy, well-nourished adults can benefit physiologically from
vitamins and amino acids in 5-Hour ENERGY®.
Dr. Blonz testified that healthy, well-nourished adults will receive no benefit from the Bvitamins and amino acids found in 5-Hour ENERGY® and that these ingredients provide no
physiological benefit and would simply be excreted. Dr. Kennedy strongly disagrees with this
opinion and testified that the recommended daily allowance of a particular vitamin is a minimum
that humans should receive each day to prevent disease. He provided the results of a study he
conducted  and  published  in  the  article  “Multivitamins  and  minerals modulate whole-body energy
metabolism and cerebral blood-flow during cognitive task performance: a double-blind,
randomized, placebo-controlled  trial,”  in  the  journal  Nutrition & Metabolism in 2016. This study

MEMORANDUM DECISION - 36

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

investigated whether supplementing the diet of healthy females with a multivitamin could affect
metabolic and cerebral blood flow consequences, assessed through cognitive tasks. He found that
just a single dose of Vitamins C and B led to an increase in fat oxidation and total energy expended.
The Court finds this evidence to be compelling proof that healthy, well-nourished adults can
benefit from some of the vitamins in 5-Hour ENERGY®. The State has not shown that the
vitamins and nutrients in 5-Hour ENERGY® provide no benefit whatsoever.
c. Whether  the  Medicus  Study  supports  Living  Essentials’  claims that noncaffeine ingredients contribute to the overall effectiveness of 5-Hour
ENERGY®.
The Medicus Study concluded that subjects who drank 5-Hour ENERGY® performed
better on tests of power of attention, continuity of attention, quality of working memory, and
quality of episodic memory at several measurement points throughout the 6 hours. Dr. McLellan,
an expert on caffeine, testified that there is no basis for concluding that these results were
attributable to any ingredient other than caffeine. Dr. Kennedy disagrees. He testified that because
caffeine has not been demonstrated to improve episodic memory and the 5-Hour ENERGY®
improved episodic memory, there must be some interaction between the caffeine and the other
bioactive ingredients causing this result.
After reviewing the scientific evidence and the testimony of Drs. McLellan and Kennedy,
the  Court  finds  Dr.  McLellan’s  opinion  to  be  the  more  credible.    First,  Medicus did not design its
study to determine whether the non-caffeine ingredients in 5-Hour ENERGY® led to improved
performance on these cognitive  tests.    One  of  the  study’s  co-authors, Marilyn Barrett, testified on
that  “the  study  was  not  designed  to  show  what  kind  of  effect  there  was  with  caffeine  and  the  other  
ingredients. It could have been additive. It could have been synergistic. It could be no effect. The
study  was  not  designed  to  show  that.”  (Barrett  Dep.  70:19-23).
Second, the Court agrees with Dr. McLellan that the test results from the Medicus clinical
trial do not show that consuming 5-Hour ENERGY® improved any of the test subjects’  cognitive  
functioning, including episodic memory, above baseline. The results merely indicate that the

MEMORANDUM DECISION - 37

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

cognitive performance of the 5-Hour ENERGY® group did not diminish as much as that of the
placebo group.
Third, the Court also finds compelling Dr.  McLellan’s  testimony  that  the Medicus study
had design flaws that, whether intentional or not, inflated the positive results of the study in favor of
5-Hour ENERGY®. Test subjects were asked to perform the computerized tests in a state of sleep
deprivation, which Dr. Udani acknowledged would have a negative impact on cognition and affective
processing. (Ex. 1458). Limiting  test  subjects’  sleep  ensured a greater impact from the caffeine in 5Hour ENERGY®, resulting in higher test scores by participants who received 5-Hour ENERGY® as
opposed to those receiving the placebo. The test subjects were additionally not permitted to consume
caffeine on the day of testing, which meant that for those who regularly drink caffeine, they were
arriving in a caffeine withdrawn state. Because scientific literature demonstrates that caffeine
withdrawal has a negative effect on performance, those test subjects who were habituated to caffeine
and received the placebo would have inevitably performed more poorly than the test subjects who
received the caffeinated 5-Hour ENERGY®.
Finally, episodic  memory  has  little  to  do  with  the  claimed  benefit  of  “energy,  alertness  and  
focus.”    The  evidence  presented  at  trial  makes  it  clear  that  caffeine  provides  these  benefits.    While  it  
is certainly plausible that the non-caffeine ingredients have a synergistic effect with the caffeine to
enhance or extend the effect of the caffeine, that question has not been studied. The Court finds that
the Medicus Study does not support a claim that the non-caffeine ingredients in 5-Hour ENERGY®
contribute to the effectiveness of 5-Hour ENERGY®.
d. Whether the Monster Arm data undermines Living  Essentials’  contention  
that the cognitive benefits from 5-Hour ENERGY® seen in the Medicus
Study are attributable to its non-caffeine ingredients.
The Appetite article made two controversial statements about the Medicus Study results.
First, Drs. Wesnes, Udani, and Barrett wrote that the caffeine in 5-Hour ENERGY® was unlikely
to  account  for  the  effects  seen  in  study  participants  because  caffeine’s  effects  dissipate  after  90  
minutes. Second,  they  wrote  that  “no  other  study  with  an  energy  shot  has  yet  demonstrated  such  

MEMORANDUM DECISION - 38

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

a  widespread  improvement  to  various  aspects  of  cognitive  function  which  have  sustained  to  6  h.”    
(Ex. 2107).
On the eve of trial, the Court ordered Living Essentials to produce documents relating to
data Medicus collected from a part of its study  known  as  the  “Monster  Arm.”    These documents
revealed that in addition to testing subjects after consuming 5-Hour ENERGY®, the Medicus team
had also tested the same subjects after they consumed a competitor energy drink, Monster, and a
placebo. Thus,   there   were   in   fact   four   “arms”   to   the   Medicus   Study:   5-Hour ENERGY®, a
comparison placebo, Monster, and a comparison placebo.    The  Court  rejects   Living  Essentials’  
argument that the Monster  Arm  was  a  “completely  different  study.”    The  IRB  protocol  and  IRB  
approval was the same; the test subjects were the same. Test participants took the same battery of
computerized tests and answered the same questionnaire about calmness, alertness, and
contentment after consuming all four drinks.
The  Court  also  rejects  Living  Essentials’  contention  that  the  Monster  Arm  data  was  never  
analyzed. In fact, the Medicus Study team prepared a fairly extensive analysis of the two arms of
the study. The team labeled the 5-Hour   ENERGY®   drink   as   “Drink   A,”   and   its   comparison  
placebo  as  “Drink  B.”    The  Monster  drink  was  labeled  as  “Drink  E,”  and  its  comparison  placebo  
labeled  “Drink  D.”    In  a  summary  of  the  data comparing Drinks A and B and Drinks D and E, the
Medicus team reported that the all of the composite scores between 5-Hour ENERGY® and the
placebo were different, with the 5-Hour ENERGY® group outperforming the placebo group on
all performance measures except self-rated calmness. With regard to the Monster group, the team
concluded that four of the five major composite scores and self-ratings were significantly different
between the Monster and placebo. Monster outperformed the placebo on four performance
measures (power of attention, continuity of attention, quality of working memory, and quality of
episodic memory), as well as on self-rated alertness and contentment.
While the Medicus team concluded that the cognitive benefits of 5-Hour ENERGY® over
the placebo were generally greater and “more statistically reliable” than those of Monster over the

MEMORANDUM DECISION - 39

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

placebo, the data nevertheless showed statistically significant cognitive benefits from Monster
lasting the entire 6 hours. According  to  Ex.  666,  Dr.  McLellan’s  article  relating  to  energy  drinks,  
Monster contains 80 mg of caffeine (compared to 5-Hour  ENERGY®’s  200  mg),  1,000  mg  of  
taurine (compared to 5-Hour  ENERGY®’s  467  mg),  5  mg  of  glucuronolactone  (compared  to  411  
mg in 5-Hour ENERGY®), 27 grams of sugar, an unknown amount of vitamins B2, B3, B5, and
B12, 5 mg of guarana and 200 mg of ginseng. Guarana is a plant that contains caffeine. Monster
appears to contain no Vitamin B6 or B9, no choline or citicoline, no malic acid, no N-Acetyl-Ltyrosine, and no L-Phenylalanine.
The Court agrees with Dr. McLellan’s opinion that the Monster Arm data directly
contradict statements made in Appetite. The data demonstrates that subjects consuming 5-Hour
ENERGY® or Monster performed better on the cognitive tests than did the subjects consuming
the comparable placebo drink. Some of the early cognitive performance results from Monster
could be attributable to the glucose. But, according to Dr. McLellan, the glucose would have
raised the blood glucose levels over the first 30 minutes but those levels would have returned to
baseline within 60 minutes. This conclusion appears credible given Dr.  McLellan’s  analysis in
Ex. 666 of the limited scientific evidence suggesting that the addition of glucose to a caffeinated
energy drink will cause greater improvements in cognitive performance than can be attributed to
the effects of caffeine alone. The Medicus Study showed differences in cognitive performance
from Monster over placebo over the entire 6-hour period—long after the blood glucose levels
would have returned to baseline. The Court agrees with Dr. McLellan that the cognitive benefits
Medicus found from Monster are unlikely to be attributable to glucose alone.
According to Dr. McLellan, the caffeine in both energy drinks, however, would have
remained elevated throughout the duration of the 6 hours. Any contention by Drs. Wesnes, Udani
and Barrett that the effects of the caffeine would have disappeared after 90 minutes is also not
supported by the science on caffeine. The Court agrees with Dr. McLellan that the Monster Arm
data makes it impossible to conclude that the cognitive benefits achieved from 5-Hour ENERGY®

MEMORANDUM DECISION - 40

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

are attributable to its non-caffeine ingredients. The Court also finds that Living  Essentials’  failure
to disclose, discuss, and account for the Monster arm data undercuts the credibility of Living
Essentials’   claim   that   the   non-caffeine ingredients of 5-Hour ENERGY® are working
synergistically with caffeine to enhance or extend the duration of any energy, alertness, and focus
than the caffeine would otherwise provide.
e. Whether  the  Cheskin  Study  undermines  Living  Essentials’  claims  about  
the Decaf 5-Hour ENERGY® product.
Dr. Cheskin’s   study concluded that 5-Hour ENERGY Decaf does not enhance energy
levels or cognitive functioning. The experts who testified at trial disagree on the reliability of Dr.
Cheskin’s study results. Dr. Blonz testified that the Cheskin study was competent and reliable
scientific evidence.      Dr.   Kennedy,   on   the   other   hand,   deemed   the   study   “an   appalling   piece   of  
work.”      Dr.   Kennedy   criticized   the   methodology:   (1)   the   principal   investigator   was   an   obesity  
doctor with inadequate experience in the area of brain science; (2) he believed the study was
designed to reach the results the Oregon Department of Justice wanted; (3) Dr. Cheskin included
participants between 18 and 70 years of age, which undercuts the reliability of the test results
because cognitive function varies with age; (4) Dr. Cheskin included a significant number of
morbidly obese individuals which would confound the test results; (5) the tests were done over the
weekend  when  participants  probably  had  been  out  “clubbing”  and  came  in  with  either  too  little  or  
too much sleep; (6) Dr. Cheskin did not train the participants on the computerized tasks to make
sure they could do the tasks in the first place; (7) there were no usable baseline results because of
the lack of this training; (8) Dr. Cheskin did not use one of the valid tests (POMS scale) more than
once after 30 minutes which would pick up any effect from the small amount of caffeine in the
product but would not pick up any effect of the other bioactive ingredients.
The Court did not hear from Dr. Cheskin himself and Dr. Blonz did not or could not rebut
these  criticisms.    Based  on  Dr.  Kennedy’s  credible  review,  the  Court  finds  that  the  Cheskin  Study  

MEMORANDUM DECISION - 41

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

is   not   sufficiently   reliable   to   consider   when   assessing   Living   Essentials’   claims   regarding   its  
decaffeinated product.
8. Living Essentials’   expert testimony on substantiation standard of care and
advertising subjectivity analysis.
Living Essentials presented evidence through Dr. Sanford Bigelow that it complied with
industry standards in substantiating its ad claims, first, by having Carl Sperber conduct internet
research on the formula’s ingredients, then by instituting a process for legal and regulatory review
by an outside law firm, followed by retaining Dr. Glade and NERAC to perform literature reviews,
and finally, by asking Dr. Blum and then Medicus to undertake clinical studies. Dr. Bigelow
concluded   that   Living   Essentials   “exceeded   industry   standards”   in   substantiating   its   product  
claims.
The  Court  finds  some  of  Dr.  Bigelow’s  opinions  credible  and  some  not.    First,  the  Court
cannot find that asking an advertising director who lacks any scientific or medical training to
conduct Internet research is adequate substantiation. Mr. Sperber had no ability or training to
assess the scientific reliability of anything he read online.
Second, the Court also cannot find  that  Living  Essentials’  regulatory  or  legal  review  was  
reasonable to substantiate the ad claims. There was no testimony from anyone who performed this
review as to what they looked at or how they analyzed its accuracy and reliability. Dr. Bigelow
had no idea how this regulatory review was conducted, or what criteria were applied when
evaluating substantiation. There is simply no evidence in the record that anyone with any science
training ever assessed the ad claims and the science backing up those claims against the FTC
substantiation guidelines, as Dr. Bigelow testified he performed for his various employers and
clients.
Third, there is no evidence that anyone  within  the  company  ever  saw  Dr.  Glade’s  reports  
or the NERAC report. Although Living Essentials produced them to the Attorney General in this
litigation as claim substantiation, the Court cannot find that Living Essentials knew about the

MEMORANDUM DECISION - 42

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

reports when they were prepared. Mr. Sperber did not know about them and no one else from the
company testified. Dr. Bigelow admitted that he has no idea whether Living Essentials even knew
of or relied on the FTC substantiation guidelines when it took action to substantiate its ad claims.
Thus,  Dr.  Bigelow’s  opinion  that  Living  Essentials  met  the  standard  of  care  in  substantiating  its  
ad claims by procuring these reports is not supported by evidence in the record.
The  Court  does  find  that  some  of  Dr.  Bigelow’s  opinions are credible. For example, as set
out below, the Court finds credible his testimony that the European Food Safety Authority
(“EFSA”)   reports   substantiate   the   general contention that certain B vitamins can help reduce
fatigue and contribute to energy metabolism. The Court also agrees with Dr. Bigelow that Living
Essentials acted reasonably in undertaking clinical studies. The question, however, is not whether
choosing to pay for clinical studies was reasonable or met the standard of care. The question is
whether the studies are adequate to support  the  ads’ claims.
Living Essentials also presented the expert testimony of J. Howard Beales, III, a professor
of strategic management and public policy at George Washington University. Dr. Beales, the
former Director of the Consumer Protection Division of the Federal Trade Commission, testified
that  none  of  the  claims  in  Living  Essentials’  ads  are  all  subjective,  rather  than  objective,  and  thus  
are not deceptive. He opined that subjective claims cannot be supported by scientific evidence.
The   Court   finds   that   Living   Essentials’   claims   are   not   subjective.      The   company  
intentionally   promoted   the   product’s   ingredients   as   changing   the   way   the   body   functioned.      It  
promoted the product as a healthy way to achieve these physiological results. The company spent
a significant amount of money on clinical studies to establish that 5-Hour ENERGY® was having
a biochemical or physiological effect on the bodies of its consumers. As Dr. Beale admitted, if an
advertiser claims that a product will change or affect the physiological functioning of the body,
that is an objective claim for which scientific substantiation exist. This Court so finds.

MEMORANDUM DECISION - 43

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

E. APPLICABLE PRINCIPLES OF LAW
The Consumer Protection act prohibits companies like Living Essentials from engaging in
“unfair  or deceptive acts or practices in  the  conduct  of  any  trade  or  commerce.” RCW 19.86.020.
The purpose of this act is to protect the public and foster fair and honest competition. RCW
19.86.920. The act is meant to be liberally construed to serve this purpose. Short v. Demopolis,
103 Wn.2d 52, 60-1, 691 P.2d 163 (1984); Michael v. Mosquera-Lacy, 165 Wn.2d 595, 602, 200
P.3d 695, 699 (2009).
The Washington Attorney General may bring an enforcement action under the CPA. RCW
19.86.080. In this CPA enforcement action, the State must prove three elements: (1) an unfair or
deceptive act or practice (2) committed by Living Essentials in trade or commerce (3) that has a
public interest impact. State v. Kaiser, 161 Wn. App. 705, 719, 254 P.3d 850 (2011). The State is
not required to prove that Living  Essentials’  unfair or deceptive advertisements injured consumers
or that consumers relied on particular 5-Hour ENERGY® ads when deciding whether to purchase
or consume the dietary supplement. Id. A  CPA  claim  also  “does  not  require  a  finding  of  an  intent  
to deceive or defraud. Good faith on the part of the seller is immaterial to liability. Wine v.
Theodoratus, 19 Wn. App. 700, 706, 577 P.2d 612 (1978).
1. Unfair or Deceptive Act or Practice
Whether a party committed a particular act is an issue of fact. See Leingang v. Pierce
County Med. Bur., Inc. 131 Wn.2d 133, 150, 930 P.2d 288 (1997). Whether a particular act is
unfair or deceptive for purposes of the CPA – in other words, the determination of whether the
CPA applies to a factual situation – is a question of law for the Court. See Panag v. Farmers Ins.
Co. of Wash., 166 Wn.2d 27, 47, 204 P.3d 885 (2009) (citing Leingang, 131 Wn.2d at 150). The
CPA  does  not  define  “unfair  or  deceptive  act  or  practice.” The Court has allowed the definition
of  unfair  or  deceptive  to  evolve  through  the  “gradual  process  of  judicial  inclusion  and  exclusion.”    
Klem v. Washington Mut. Bank, 176 Wn.2d 771, 785, 295 P.3d 1179 (2013) (citing Saunders v.
Lloyd's of London, 113 Wn.2d 330, 344, 779 P.2d 249, 256 (1989)). There is no limit to human

MEMORANDUM DECISION - 44

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

inventiveness, so the courts and the legislature are left to define an unfair or deceptive act in order
to fulfill the protective purposes of the CPA. Id. at 786.
Washington state courts have concluded that there are several routes a court can take when
determining if a company’s  conduct is unfair or deceptive. See Klem, 176 Wn.2d at 787. Blatant,
false misrepresentations that result in actual deception are obviously deceptive, although actual
deception is not required, only the capacity to deceive. Hangman Ridge Training Stables, Inc. v.
Safeco Title Ins. Co., 105 Wn.2d 778, 785, 719 P.2d 531 (1986). In addition, a truthful statement
“may  be  deceptive  by  virtue  of  the  ‘net  impression’  it  conveys[.]”  Panag, 166 Wn.2d at 50 (citing
FTC cases).
2. FTC Advertising Substantiation Requirement
The CPA also provides that courts can be guided in their determination of whether conduct
is  unfair  or  deceptive  by  federal  court  decisions  and  “final  orders  of  the  federal  trade  commission  
interpreting   the   various   federal   statutes   dealing   with   the   same   or   similar   matters”   as   the   CPA.
RCW 19.86.920; CertainTeed Corp. v. Seattle Roof Brokers, C 09-563 RAJ, 2010 WL 2640083,
at *6 (W.D. Wash. June 28, 2010); State v. Black, 100 Wn.2d 793, 799, 676 P.2d 963, 967 (1984)
(“When  the  Legislature  enacted  the  Consumer  Protection  Act,  it  anticipated that our courts would
be guided by the interpretation given by federal courts to their corresponding federal statutes”).
The CPA was modeled after Section 5 of the FTC Act, 15 U.S.C. § 45(a)(1), which, like the CPA,
includes a broad prohibition on  “unfair  or  deceptive  acts  or  practices.”  Hangman Ridge, 105 Wn.2d
at 783. Washington courts have relied on cases interpreting Section 5 of the FTC Act when
determining if certain conduct is unfair or deceptive. See, e.g., Panag, 166 Wn.2d at 49-50.
Under Section 5 of the FTC Act, to prove that an ad is deceptive, the FTC must establish
(1) that an advertisement conveys a representation through either express or implied claims; (2)
that the representation is likely to mislead consumers; and (3) that the misleading representation
is material. F.T.C. v. Direct Mktg Concepts, Inc., 569 F.Supp.2d 285, 297 (D. Mass. 2008), aff’d,
624 F.3d 1 (1st Cir. 2010). Neither proof of consumer reliance nor consumer injury is necessary

MEMORANDUM DECISION - 45

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

to establish a Section 5 violations. F.T.C. v. Freecom Commc'ns, Inc., 401 F.3d 1192, 1203 (10th
Cir.2005); F.T.C. v. Direct Mktg., 569 F. Supp.2d at 297-98. The Court will apply this test to the
Living Essential ads in this case.
An  advertisement’s  meaning  is  a  question  of  fact.    FTC  v.  Nat’l  Urological  Grp.,  Inc., 645
F.Supp.2d 1167, 1189 (N.D. Ga. 2008), aff’d, 356 Fed. Appx. 358 (11th Cir. 2009). The Court
must look at the advertisement’s  overall,  net  impression,  rather  than  the  literal  truth  or  falsity  of  
the words of the ad. Id. Where implied claims are conspicuous and reasonably clear from the face
of the advertisement, extrinsic evidence is not required to prove the existence of implied claims.
U.S. v. Bayer Corp., 2015 WL 5822595, at *11 (D. N.J. Sept. 24, 2015). The Court can ascertain
an advertisement’s meaning by examining the ad itself. F.T.C. v. U.S. Sales Corp., 785 F. Supp.
737, 745 (N.D. Ill. 1992).

Even an accurate communication   can   be   deceptive   if   the   “net  

impression”   it   conveys   is   deceptive. Panag, 166 Wn.2d at 50. Courts   “will   often   be   able   to  
determine meaning through an examination of the representation itself, including an evaluation of
such factors as the entire document, the juxtaposition of various phrases in the document, the
nature   of   the   claim,   and   the   nature   of   the   transaction.”      FEDERAL TRADE COMMISSION, Policy
Statement on Deception (1983), at http://www.ftc.gov/bcp/policystmt/ad-decept.htm (last
accessed October 7, 2016).   With   respect   to   extrinsic   evidence   of   the   “takeaway”   from   an   ad,  
consumer survey evidence or consumer testimony is not required. F.T.C. v. Medlab, Inc., 615
F. Supp. 2d 1068, 1077-78  (N.D.  Cal.  2009)  (citing  cases  and  rejecting  defendant’s  argument  that  
consumer survey evidence or consumer testimony must be presented to support a finding as to the
meaning of an ad). Extrinsic evidence can include expert testimony. FTC Policy Statement on
Deception, n.8.
In analyzing a representation, the FTC can prove that a representation is likely to mislead
consumers  by  establishing  either  (1)  actual  falsity  of  express  or  implied  claims  (“falsity”  theory);;  
or (2) that the advertiser lacked a reasonable basis for asserting that the message was true
(“reasonable  basis”  theory).  F.T.C. v. Pantron I Corp., 33 F.3d 1088, 1096 (9th Cir.1994) (citing

MEMORANDUM DECISION - 46

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

In the Matter of Thompson Med. Co., Inc., 104 F.T.C. 648 (1984)); F.T.C. v. John Beck Amazing
Profits, LLC, 865 F.Supp.2d 1052, 1067 (C.D.Cal.2012). The FTC may prove the claims are
literally false if all reasonable scientists would agree that the claims do not provide the benefits as
asserted. Mullins v. Premier Nutrition Corp., 2016 WL 1534784, at *16 (N.D. Cal. Apr. 15, 2016)
(citing In re GNC Corp., 789 F.3d 505, 515 (4th Cir.2015)). The FTC may do this by showing the
advertiser’s  expert  opinions  are  unreasonable  or  that  no  expert  believes in the assertion. Id. at *17.
The State has indicated that it is not proceeding on the actual falsity theory but is instead
proceeding solely on the reasonable basis theory. Thus,  the  Court  will  not  apply  the  “all  reasonable  
scientists”  standard  to  Living  Essentials’  substantiation  evidence in this case.
If an ad expressly states or impliedly suggests that a product successfully performs an
advertised  function  or  yields  an  advertised  benefit,  the  advertiser  must  have  a  “reasonable  basis”  
for the claim. F.T.C. v. COORGA Nutraceuticals Corp., 2016 WL 4472994, at *4 (D. Wyo. 2016)
(citing In re Pfizer, Inc., 81 F.T.C. 23 (1972)). Under the reasonable basis theory, the advertiser
must have had some recognizable substantiation for the representation prior to making it an
advertisement. John Beck Amazing Profits, LLC, 865 F.Supp.2d at 1067. The advertiser has the
burden of establishing what substantiation it relied on for a claim, and the State has burden of
establishing that that substantiation is inadequate. F.T.C. v. Johnson, 96 F. Supp. 3d 1110, 1120
(D. Nev. 2015). Where an advertiser lacks adequate substantiation evidence, they necessarily lack
any reasonable basis for their claims and the ad is deceptive as a matter of law. Direct Mktg.
Concepts, Inc., 624 F.3d at 8. In determining whether an advertiser has satisfied the reasonable
basis requirement, the Commission or court must first determine what level of substantiation the
advertiser is required to have for his advertising claims. Then, the adjudicator must determine
whether  the  advertiser  possessed  that  level  of  substantiation.”  Pantron I Corp., 33 F.3d at 1096;
John Beck Amazing Profits, LLC, 865 F. Supp.2d at 1067.
Under FTC guidance to advertisers of dietary supplements, claims about the efficacy of
dietary supplements must be  supported  by  “competent  and  reliable  scientific  evidence,”  which  the  

MEMORANDUM DECISION - 47

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

FTC   defines   as   “tests,   analyses,   research,   studies   or   other   evidence,   based   on   the   expertise   of  
professionals in the relevant area, that have been conducted and evaluated in an objective manner
by persons qualified to do so, using procedures generally accepted in the profession to yield
accurate and reliable results.

See FEDERAL TRADE COMMISSION, Dietary Supplements: An

Advertising Guide for Industry (2001), at https://www.ftc.gov/system/files/documents/plainlanguage/bus09-dietary-supplements-advertising-guide-industry.pdf (last accessed October 7,
2016), at 9. The FTC lists a number of factors (known as the Pfizer factors) to considering the
appropriate amount and type of substantiation:
The Type of Product. Generally, products related to consumer health or safety
require a relatively high level of substantiation.
The Type of Claim. Claims that are difficult for consumers to assess on their own
are held to a more exacting standard. Examples include health claims that may be
subject to a placebo effect or technical claims that consumers cannot readily verify
for themselves.
The Benefits of Truthful Claims and The Cost/Feasibility of Developing
Substantiation for the Claim. These factors are often weighed together to ensure
the valuable product information is not withheld from consumers because the cost
of developing substantiation is prohibitive. This does not mean, however, that an
advertiser can make any claim it wishes without substantiation, simply because the
cost of research is too high.
The Consequences of a False Claim. This includes physical injury, for example,
if a consumer relies on an unsubstantiated claim about the therapeutic benefit of a
product and foregoes a proven treatment. Economic injury is also considered.
The Amount of Substantiation that Experts in the Field Believe is Reasonable.
In making this determination, the FTC gives great weight to accepted norms in the
relevant  fields  of  research  ….    Where there is an existing standard for substantiation
developed by a government agency or other authoritative body, the FTC accords
great deference to that standard.
Id. at 8-9. A guiding principle for determining the amount and type of evidence needed is what
experts in the relevant area of study would consider to be adequate. Id. at 10. The FTC will look
at the amount and type of substantiation. For example, the most reliable evidence comes from
well-controlled human clinical trials. Id. It will look at the quality of the evidence by examining
the validity of the methodology used in any clinical trials. Id. at 12. The FTC cautions advertisers
not to rely on the fact that a study was published as proof of scientific reliability without assessing

MEMORANDUM DECISION - 48

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

the quality of the research. Id. The FTC also requires that advertisers of dietary supplements
consider the totality of the scientific evidence and not cherry pick the studies that support their
claims and ignore conflicting study results. Finally, the studies on which an advertiser is relying
must be relevant to the claims being made in ads:
Therefore, advertisers should ask questions such as: How does the dosage and
formulation of the advertised product compare to what was used in the study? Does
the advertised product contain additional ingredients that might alter the effect of
the ingredients in the study? Is the advertised product administered in the same
manner as the ingredient used in the study? Does the study population reflect the
characteristics and lifestyle of the population targeted by the ad? If there are
significant discrepancies between the research conditions and the real life use being
promoted, advertisers need to evaluate whether it is appropriate to extrapolate from
the  research  to  the  claimed  effect.”
Id. at  16.    “Claims  that  do  not  match  the  science,  no  matter  how  sound  that  science  is,  are  likely  to  
be  unsubstantiated.”    Id.
3. Materiality
Implicit in the term “deceptive” in the CPA is   “the   understanding   that   the   actor  
misrepresented something  of  material  importance.”  Hiner v. Bridgestone/Firestone, Inc., 91 Wn.
App. 722, 730, 959 P.2d 1158 (1998), rev'd on other grounds, 138 Wn.2d 248, 978 P.2d 505
(1999); Stephens v. Omni Ins. Co., 138 Wn. App. 151, 166, 159 P.3d 10, 18–19 (2007), aff'd sub
nom. Panag v. Farmers Ins. Co. of Washington, 166 Wn. 2d 27, 204 P.3d 885 (2009). Express
claims,  deliberately  implied  claims,  and  claims  that  “significantly  involve  health,”  are  presumed  
material.

Kraft, Inc. v. F.T.C., 970 F.2d 311, 322-3 (7th Cir. 1992); F.T.C. v. COORGA

Nutraceuticals Corp., 2016 WL 4472994, at *3 (D. Wyo. 2016). A presumption of actual reliance
by consumers arises once the State proves that the defendant made material misrepresentations,
that  they  were  widely  disseminated,  and  that  consumers  purchased  the  defendant’s  product.    F.T.C.
v.  Figgie  Int’l,  Inc., 994 F.2d 595, 605 (9th Cir. 1993).

MEMORANDUM DECISION - 49

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

F. ANALYSIS
1. Living  Essentials’  Vitamin Claims are not deceptive.
Living  Essentials’  claims  that  that B vitamins promote energy and amino acids promote
alertness and focus are not deceptive. Nutritional science supports the general proposition that the
vitamins and nutrients in 5-Hour ENERGY® are physiologically beneficial, even to healthy, wellnourished adults. They support metabolism which affects energy. They can help reduce fatigue.
They can help increase blood flow to the brain and support the generation of neurotransmitters,
which can affect alertness and focus.      Dr.   Kennedy’s   testimony   regarding   the   general   health  
benefits of B vitamins, choline, taurine, and L-tyrosine, was compelling and credible. Dr. Sanford
Bigelow testified credibly that the dosages found in 5-Hour ENERGY® are sufficient in quantity
to provide the claimed benefits. There is adequate scientific substantiation predating July 2012 to
support   Living   Essentials’   claim that the vitamins and nutrients in 5-Hour ENERGY® help
promote energy, alertness and focus. For this reason, the Court finds that the State has not
established that Living Essentials’  Vitamins  Claims violated the CPA.
2. Living Essentials’  Superior  to  Coffee  Claims are deceptive.
Living Essentials, however, claims that the B vitamins and amino acids do not just promote
energy, alertness and focus. Living Essentials also claims that these vitamins and amino acids
work synergistically with caffeine (or interacts with caffeine) to enhance the duration of the
energy, alertness and focus derived from caffeine.7 This is the takeaway of the Superior to Coffee
Claims. Living Essentials advertised that the combination of caffeine, B vitamins and amino acids
would provide energy that would last longer than consumers would experience from a cup of
premium coffee (and in some of the ads, longer than 3 or 4 cups of coffee).

7
Although some of the studies suggest that caffeine does not improve episodic memory, and that 5-Hour
ENERGY®  provides  some  improvement  in  this  area,  none  of  Living  Essentials’  ads  claim  such  a  benefit  from  the  
product.    Carl  Sperber  testified  that  he  was  not  even  aware  of  what  “episodic  memory”  was.    He  certainly did not use
these  words  in  any  Living  Essential  ads.    These  studies  are  thus  irrelevant  to  the  Court’s  analysis.

MEMORANDUM DECISION - 50

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

While the Court finds competent and reliable scientific evidence that caffeine in 5-Hour
ENERGY® is probably interacting with its B vitamins, taurine, glucuronolactone, and other noncaffeine ingredients, the Court cannot find that this evidence supports the specific benefit Living
Essentials   is   claiming.      Dr.   Kennedy’s   summary   of   the   scientific   literature   does   show   some  
different physiological results from caffeine plus vitamins or caffeine plus amino acids, but the
results are not the benefits touted by Living Essentials. The Giles study, for example, actually
supports the proposition that taurine counteracts the caffeine, rather than enhancing its effects.
The studies do not clearly establish that 5-Hour ENERGY®’s   vitamins   and   nutrients   work  
synergistically with caffeine to make these benefits last longer than they would last with caffeine
alone.
As set out in the FTC dietary supplement guidelines, the substantiation must be relevant to
the claimed benefits. None of the studies Living Essentials submitted to the Court support the
claim that combining specific B vitamins, taurine, choline, glucuronolactone and tyrosine with
caffeine will cause the energy, alertness and focus effects of caffeine to last longer than if the
caffeine were consumed alone. Neither Glade nor NERAC examined this issue. The only
corporate representative to testify regarding the substantiation Living Essentials relied on when
airing its ads was Carl Sperber. Sperber cited the Medicus Study as the only substantiation he was
aware of, other than his own Internet research. But the Medicus study had no separate caffeine
arm against which to compare 5-Hour ENERGY®.
At trial, Living Essentials presented several studies on which it now relies to substantiate
its Superior to Coffee Claims. Living Essentials points to the 2013 Nagrecha Study, the 2015
Molnar Study and the 2015 Paulus Study. The Court has reviewed each study presented and the
testimony of the experts regarding these studies and finds none that are sufficiently relevant to
substantiate the Superior to Coffee Claims. The Nagrecha study has limited relevance because its
test subjects underwent only one round of testing 40 minutes after ingesting the caffeine/choline

MEMORANDUM DECISION - 51

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

drink. There is no data in the Nagrecha study to indicate that adding choline to a caffeinated drink
extends the benefits of caffeine past that 40 minute mark.
The 2015 Paulus study compared 5-Hour ENERGY® to a Starbucks DoubleShot and to
caffeine by itself. In his tests, Paulus found that the 5-Hour ENERGY group outperformed the
other two groups. But the Court finds the methodological problems, specifically the lack of
blinding of the participants and lack of other controls, to be significant enough to render the Paulus
Study results unreliable.
The 2015 Molnar Study comes the closest. Molnar found a significant improvement in
endothelial function (blood flow) 1 ½ and 4 hours after the subjects consumed 5-Hour ENERGY®
and Red Bull, and no similar improvement in endothelial function was seen for those ingesting
NOS or coffee. Dr. Blonz testified that the Molnar study was not relevant to the claims Living
Essentials was making in the ads because Molnar did not test cognitive functioning to evaluate
energy, alertness and focus. Molnar was merely looking at endothelial function as a proxy for
coronary function. Dr. Kennedy disagreed and testified that endothelial function is a measure of
how well the body is delivering blood on demand to the brain. In  Dr.  Kennedy’s  opinion, the more
blood delivered to the brain, the better the cognitive functioning. But the Bloomer study concluded
that neither caffeine nor 5-Hour ENERGY® resulted in an improvement in subjective feelings of
energy or mood or in objective cognitive performance, seeming to undercut the reasonability of
relying  on  Molnar  as  substantiation  for  Living  Essentials’  claims.
Ultimately, the question the Court confronts is whether the Molnar study, by itself, suffices
to substantiate the efficacy claims Living Essentials made in ads years before the study was
published and whether it now suffices to justify these claims. Dr. Beales opined that very little
substantiation  should  be  required  because  “there  is  not  very  much  at  stake  for  consumers”  under  
the factors set out in Pfizer, Inc., 81 F.T.C. 23, 62 (1972). The Court rejects this opinion. Because
the  Court  finds  that  Living  Essentials’  ads  relate  to  consumer  health,  the  Court  concludes  that  the  

MEMORANDUM DECISION - 52

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

better approach is that set out in the FTC dietary supplement guidelines:   “Generally,   products  
related  to  consumer  health  or  safety  require  a  relatively  high  level  of  substantiation.”
After careful consideration, the Court finds that Living Essentials lacked adequate
competent and reliable scientific evidence to make the Superior to Coffee Claim. First, Dr.
Kennedy admitted that there is no study that has looked at the effects of the combination of
ingredients in 5-Hour ENERGY® on energy, alertness and focus as compared to caffeine. He also
conceded that there is no evidence that the addition of multivitamins, taurine, or glucuronolactone
to a caffeinated energy drink will cause greater improvement in physical and cognitive
performance  that  can  be  attributed  to  the  effects  of  caffeine  alone.    As  he  testified,  “At  this  stage,
we  don’t  know  which  of  the  other  micronutrients  [or]  the  other  bioactives  []  interact  with  caffeine.”    
He opined that a number of different non-caffeine ingredients in 5-Hour ENERGY® could be
interacting to   extend   one’s   energy,   alertness and focus, but there are studies that support this
hypothesis and there are studies that undermine it.
Second, caffeine may not improve endothelial function for as long as 5-Hour ENERGY®
does.    It  does  not  necessarily  follow,  however,  that  caffeine’s  impact  on   cognitive performance
ends when its impact on endothelial function ends. Dr. McLellan testified that caffeine can cross
the blood/brain barrier and, because of its half-life, remains in and affects cognitive performance
for a significant period of time. Living Essentials is claiming that 5-Hour ENERGY® works better
than caffeine alone in sustaining energy, alertness and focus over several hours. This claim is
certainly plausible, given the science presented to the Court, but it remains a hypothesis, not an
established scientific fact.
The Court finds that the Superior to Coffee claims were express claims and are thus
material under the CPA. The ads expressly state that people who drink 5-Hour ENERGY® will
experience hours of energy, alertness and focus because the vitamins and nutrients extend the
effects of caffeine. There is insufficient scientific evidence to support this express health-related
claim. The Superior to Coffee Claims are thus materially misleading.

MEMORANDUM DECISION - 53

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

For these reasons, Living Essentials violated the CPA when it aired or disseminated ads
that expressly or impliedly stated that the energy, alertness and focus derived from 5-Hour
ENERGY® will be greater than or last longer than any similar physiological benefits derived from
coffee.
3. The Decaf ads are deceptive.
The Court finds that Living Essentials lacks competent and reliable scientific evidence to
claim that Decaf 5-Hour ENERGY® will generate energy and alertness that “lasts for hours.”8 Dr.
Bigelow testified that Living Essentials acted reasonably in relying on the 2010 Glade Report and
the 2007 NERAC Report to substantiate this decaf claim. The Court does not find this testimony
credible. Dr. Glade relied on taurine studies that demonstrated that daily dietary supplementation
of taurine in 3000 mg or more increased metabolizable energy that could last for at least four hours.
Decaf 5-Hour ENERGY® contains only 483 mg of taurine. The FTC guidelines on dietary
supplements specifically cautions advertisers from relying on studies the conclusions of which are
based on very different dosages. Such is the case here with the taurine studies on which Dr. Glade
relied. Dr. Glade also cited studies for the proposition that the daily intake of between 6 mcg and
5000 mcg of B12 supports the production of energy within 2 hours of consumption and for 12 to
24 hours after consumption.
Dr. Kennedy testified that the 2015 Shah Study demonstrated that both caffeinated and
decaffeinated  energy  drinks  “significantly”  boosted  energy  level  one  hour after consumption. But
the chart on which Dr. Kennedy relies (Ex. 2254, slide 65) actually shows that the decaf energy
level test results at the 3 hour mark were not statistically significant. And the 2013 Kurtz study
also found that consumers drinking Decaf 5-Hour ENERGY® experienced no energy benefits
from the ingredients in the drink.

8

The  Court  dismissed  the  State’s  challenge  to  representations  in  Exhibit  641  as  non-actionable on Living
Essentials’  CR  41(b)(3)  motion.

MEMORANDUM DECISION - 54

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

While there is competent and reliable scientific evidence to support a claim that the Decaf
5-Hour ENERGY® shot may provide a short-term benefit in terms of energy, the science is
insufficient to substantiate the claim that this benefit will endure over a five hour period.
For this reason, the Court finds the Decaf Claims to be materially misleading and a
violation of the CPA.
4. The  “No  Crash”  ads  are  not deceptive.
The State contends that Living Essentials claims that consumers will experience no sugar
or caffeine crash after drinking 5-Hour  ENERGY.    The  main  problem  with  the  State’s  allegation  
is  that  there  appears  to  be  no  accepted  meaning  of  the  word  “crash”  when  applied to energy drinks.
Dr. Pratkanis testified that the phrase  “crash  feeling”  is  left  open  to  the  consumer  to  interpret  any  
way they feel in their experience. Dr. Blonz interpreted the  term  “crash”  as  a  non-scientific term
dealing with caffeine withdrawal effects.
By 2007, Living Essentials began to use the  phrase  “no  crash”  to  mean “no  sugar  crash,”  
or the absence of the sudden feeling a consumer may experience following ingestion of sugar
(which 5-hour ENERGY® does not contain). Because there is no sugar in 5-hour ENERGY®, a
person  will  not  experience  a  “crash”  relating  to  a  drop  in  glucose  levels  after  consuming  the  5hour  ENERGY®  products.    Each  of  Living  Essentials’  ads  referencing  “crash”  after  July 17, 2012
contained  an  asterisk  directing  consumers  to  a  statement  that  “no  crash  means  no  sugar  crash,”  or  
contained  only  the  language  “no  sugar  crash.”  
The   Court   rejects   Dr.   Blonz’s   theory   that   the   term   “crash”   in   the   5-hour ENERGY®
advertisements refers to feelings of fatigue or tiredness that a person who is habituated to caffeine
may experience after not having had caffeine for a certain period. There is no empirical evidence
for the existence of a caffeine-related crash. Habituation does not develop after a single ingestion
of caffeine, and a caffeine-related   “crash”   is   physiologically   implausible   because   of   caffeine’s  
half-life.    Dr.  Blonz  cited  no  studies  showing  evidence  of  a  “caffeine  crash.”    

MEMORANDUM DECISION - 55

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

The State has failed to establish that Living Essentials’  “no  crash”  claims  are  misleading  
or deceptive under the CPA.
5. The Ask Your Doctor Ads were deceptive under the CPA.
The Court finds that the net impression from the AYD ads was that a substantial majority
of doctors believe 5-Hour ENERGY® is a safe and effective nutritional supplement that they
would recommend to their patients. While the statistics displayed in the ads and the words used
in the ad were literally true, the impression left by the ads was not. Dr. Anthony Pratkanis, an
expert in the science of consumer behavior and persuasion tactics, testified credibly that the clear
takeaway  from  these  ads  was  that  “doctors  would recommend”  5-Hour ENERGY®. The Court
agrees.
First, Sperber testified that when he developed the script, he wanted to allay  consumers’  
concerns about the safety or nutritional value of 5-Hour ENERGY® by indicating that doctors
would recommend the product. Neither of the surveys (Ex. 436; Ex. 627) asked physicians if they
thought 5-Hour ENERGY® was healthy or safe. Instead, the doctors were informed that 5-Hour
ENERGY® low fat, low calorie, low sodium, sugar-free drink. The survey then asked if the
physicians would recommend 5-Hour ENERGY® for healthy patients who already use energy
supplements:

Dr. Pratkanis testified that the survey questions were biased, leading, and designed to elicit
a   limited   response.      Due   to   the   phrasing   of   the   questions   that   preceded   this   question,   a   “no”  
response to this question suggested that the responding doctor would instead recommend a high
fat, high calorie, or high sodium energy supplement, rather than allowing doctors the option of
saying they do not recommend energy supplements at all. It is thus not surprising that 47 percent
MEMORANDUM DECISION - 56

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

of the doctors responding to the online survey responded in the affirmative, and 74 percent of the
doctors responding to the paper survey responded in the affirmative.
Second,  the  statistics  Living  Essentials  presented  in  the  ads  (“over  73%”)  were  the  results  
of the online survey of 503 doctors, but the  reference  to  “3,000  doctors”  was  a  combination  of  both  
surveys. Although the statistics in the AYD ads were technically an accurate depiction of the
online survey, the statistics presented in the ad were only accurate for responses from 503 doctors,
not for  responses  from  3,000  doctors,  as  the  ads  state.    The  Court  finds  credible  Dr.  Pratkanis’s  
testimony that the survey methods used for the online survey and the paper survey differed so
dramatically that the surveys could not reasonably be combined and represented as the same
survey. The 2,600 doctors who participated in the paper survey were not randomly selected. They
were  specifically  chosen  by  sales  representatives  making  sales  calls  on  doctors’  offices.    Yet,  the  
company presented the statistics in a way that would lead a reasonable viewer to believe that 73%
of 3,000 doctors surveyed would recommend this product to their patients.
Living Essentials argues that even if the ads were not accurate, they were not materially
misleading. They presented Dr. Christopher Stomberg, an expert on econometrics (the application
of statistics to economic questions) who testified that the online survey statistic results contained
in the AYD ads were accurate and representative of the opinions of primary care doctors across
the United States. Living Essentials argues that because the survey results were representative of
what 3,000 randomly selected primary care doctors would have said had they been surveyed in a
scientifically valid manner, the ads cannot be found to be misleading in any material way.
G. CONCLUSIONS OF LAW
Based on the analysis set out above, the Court concludes the following:
1. The State failed to prove that Living Essentials violated the Consumer Protection Act when
it aired or published ads that indicated that the non-caffeine ingredients in 5-Hour ENERGY®
promote energy, alertness and focus.

MEMORANDUM DECISION - 57

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

2. Living Essentials violated the Consumer Protection Act when it aired or published ads that
represented that the energy, alertness and focus from 5-Hour ENERGY® lasts longer than a cup
of coffee because of the synergistic or interactive effects of caffeine, B vitamins and nutrients in
the product.
3. Living Essentials violated the Consumer Protection Act when claimed in a press release
and on its web site that Decaf 5-Hour ENERGY® will provide energy, alertness and focus that
lasts for hours.
4. The State failed to prove that Living Essentials violated the Consumer Protection Act when
it  aired  or  published  its  “no  crash”  ads.
5. Living Essentials violated the Consumer Protection Act when it aired the Ask Your Doctor
ads.
At trial, the parties agreed to postpone a remedy phase of the proceeding until the Court issued
this decision. The parties  shall  contact  the  Court’s  bailiff  to  schedule  a  status  conference  in  this  matter.

DATED this 7th day of October, 2016.

Honorable Beth M. Andrus
King County Superior Court

MEMORANDUM DECISION - 58

KING COUNTY SUPERIOR COURT
516 Third Avenue, C-203
Seattle, WA 98104
(206) 477-1537

King County Superior Court
Judicial Electronic Signature Page
Case Number:
Case Title:

WASHINGTON STATE OF VS LIVING ESSENTIALS ET ANO

Document Title:

ORDER MEMORANDUM DECISION

Signed by:
Date:

Beth Andrus
10/10/2016 9:00:00 AM

Judge

14-2-19684-9

Beth Andrus

This document is signed in accordance with the provisions in GR 30.
Certificate Hash:
D92F76D12132FF531AF16720A721F097AC7A50B6
Certificate effective date: 7/29/2013 12:26:48 PM
Certificate expiry date: 7/29/2018 12:26:48 PM
Certificate Issued by:
C=US, E=kcscefiling@kingcounty.gov, OU=KCDJA,
O=KCDJA, CN="Beth
Andrus:dE53Hnr44hGmww04YYhwmw=="

Page 59 of 59

